<html>
<title> - H.R. 1776, ``CLEAR CREEK NATIONAL RECREATION AREA AND CONSERVATION ACT''; H.R. 2175, ``WORLD WAR II MEMORIAL PRAYER ACT OF 2013''; H.R. 2489, ``OREGON CAVES REVITALIZATION ACT OF 2013''; AND H.R. 3806, ``GREAT SMOKY MOUNTAINS NATIONAL PARK AGREEMENT ACT OF 2013''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
  H.R. 1776, ``CLEAR CREEK NATIONAL RECREATION AREA AND CONSERVATION 
 ACT''; H.R. 2175, ``WORLD WAR II MEMORIAL PRAYER ACT OF 2013''; H.R. 
  2489, ``OREGON CAVES REVITALIZATION ACT OF 2013''; AND H.R. 3806, 
     ``GREAT SMOKY MOUNTAINS NATIONAL PARK AGREEMENT ACT OF 2013''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 20, 2014

                               __________

                           Serial No. 113-73

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-012 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     

















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Rauul R. Labrador, ID                Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Jared Huffman, CA
Jason T. Smith, MO                   Vacancy
Vance M. McAllister, LA              Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio

                                 ------                                


















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 20, 2014............................     1

Statement of Members:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon............................................     3
        Prepared statement of....................................     3
    Grijalva, Hon. Rauul M., a Representative in Congress from 
      the State of Arizona, Prepared statement of................     2

Statement of Witnesses:
    Allard, Wayne, Vice President for Government Relations, 
      American Motorcyclist Association..........................    15
        Prepared statement of....................................    17
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California, Prepared statement of.......................    44
    Johnson, Hon. Bill, a Representative in Congress from the 
      State of Ohio..............................................     6
    Koretoff, Steve, California Trail Users Association..........    38
        Prepared statement of....................................    40
    Lago, Lenise, Deputy Chief of Business Operations, U.S. 
      Forest Service, U.S. Department of Agriculture.............    11
        Prepared statement of....................................    12
    Meadows, Hon. Mark, a Representative in Congress from the 
      State of North Carolina....................................    22
    Shuler, Heath, Asheville, North Carolina.....................    19
        Prepared statement of....................................    21
    Sheaffer, Bruce, Comptroller, National Park Service, U.S. 
      Department of the Interior.................................     8
        Prepared statement on H.R. 2175 and H.R. 2489............     9
        Prepared statement on H.R. 3806..........................    29
    Rountree, Carl, Assistant Director, National Landscape 
      Conservation System and Community Partnerships, Bureau of 
      Land Management, U.S. Department of the Interior...........    30
        Prepared statement of....................................    31

Additional Material Submitted for the Record:
    Department of the Interior, Map submitted for the record, 
      Resource Management Amendment and Route Designation for OHV 
      roads and trails...........................................    47
    List of documents submitted for the record retained in the 
      Committee's official files.................................    53
    Material submitted for the record by Mark Meadows in support 
      of H.R. 3806...............................................    23
    Miscellaneous Letters submitted for the record in opposition 
      of H.R. 2175...............................................    48
    Public Land Council and Cattlemen's Associations, Letter 
      submitted for the record by Rep. Bishop in opposition of 
      H.R. 2489..................................................     5
                                     

LEGISLATIVE HEARING ON H.R. 1776, TO ESTABLISH THE CLEAR CREEK 
NATIONAL RECREATION AREA IN SAN BENITO AND FRESNO COUNTIES, TO 
  DESIGNATE THE JOAQUIN ROCKS WILDERNESS IN SUCH COUNTIES, TO 
DESIGNATE ADDITIONAL COMPONENTS OF THE NATIONAL WILD AND SCENIC 
 RIVERS SYSTEM, AND FOR OTHER PURPOSES, ``CLEAR CREEK NATIONAL 
 RECREATION AREA AND CONSERVATION ACT''; H.R. 2175, TO DIRECT 
  THE SECRETARY OF THE INTERIOR TO INSTALL IN THE AREA OF THE 
 WORLD WAR II MEMORIAL IN THE DISTRICT OF COLUMBIA A SUITABLE 
PLAQUE OR AN INSCRIPTION WITH THE WORDS THAT PRESIDENT FRANKLIN 
D. ROOSEVELT PRAYED WITH THE UNITED STATES ON JUNE 6, 1944, THE 
MORNING OF D-DAY, ``WORLD WAR II MEMORIAL PRAYER ACT OF 2013''; 
H.R. 2489, TO MODIFY THE BOUNDARY OF THE OREGON CAVES NATIONAL 
MONUMENT, AND FOR OTHER PURPOSES, ``OREGON CAVES REVITALIZATION 
ACT OF 2013''; AND H.R. 3806, TO AUTHORIZE PAYMENT OF FUNDS IN 
  ACCORDANCE WITH THE AGREEMENT ENTERED INTO BY THE TENNESSEE 
 VALLEY AUTHORITY, THE STATE OF NORTH CAROLINA, SWAIN COUNTY, 
    NORTH CAROLINA, AND THE UNITED STATES DEPARTMENT OF THE 
 INTERIOR, ``GREAT SMOKY MOUNTAINS NATIONAL PARK AGREEMENT ACT 
                           OF 2013''

                              ----------                              


                         Tuesday, May 20, 2014

                     U.S. House of Representatives

        Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 9:38 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Tipton, LaMalfa; Grijalva, 
Garcia, and DeFazio.
    Also Present: Representative Johnson of Ohio.
    Mr. Bishop. This hearing will come to order. The Chair 
notes the presence of a quorum. Under the rules, the opening 
statements are limited to the Chairman and Ranking Member. 
However, I ask unanimous consent to include any other Members' 
opening statements in the hearing record if submitted to the 
clerk by the close of business today.
    [No response.]
    Mr. Bishop. Hearing no objections, that is so ordered. I 
want to thank you and welcome you to this particular hearing. 
We are talking about four specific bills. Actually, this was 
going to be a longer hearing with more bills. However, we had 
problems with Members and with witnesses who were not able to 
be here. So we will talk about H.R. 1776--nice number--H.R. 
2175, H.R. 2489, H.R. 3806.
    With that, I am going to waive any opening statement. Mr. 
Grijalva, do you wish to make an opening statement?
    Mr. Grijalva. Mr. Chairman, let me just enter my statement 
into the record. But at this point I would like to yield the 
balance of my time to Ranking Member DeFazio for his 
legislation, legislation that--the Oregon Caves Revitalization 
Act, a top priority for the Member and the constituents he 
serves.
    With that, I would yield my time to the Ranking Member.
    Mr. Bishop. OK. Actually, if you want to go now, you are 
the next one on the docket, anyway, so we will just assume that 
statements have been made. I appreciate all that.
    Mr. Grijalva. Thank you----
    [The prepared statement of Mr. Grijalva follows:]
    Prepared Statement of the Hon. Rauul Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation
    Thank you, Mr. Chairman.
    I welcome the opportunity to hear from members and the 
administration on these four important bills.
    First, I would like to welcome our distinguished Full Committee 
Ranking Member, Mr. DeFazio to the subcommittee. I hope that today's 
hearing will be the first step in passing his bill, the Oregon Caves 
Revitalization Act. A bill that has been a top-priority for the Ranking 
Member and his constituents for many years.
    I also would like to welcome my colleague from California, Mr. Farr 
to the subcommittee. I would like to commend Congressman Farr for his 
tireless efforts to move his legislation forward.
    The bipartisan Clear Creek National Recreational Area and 
Conservation Act brings a broad-coalition of stakeholders together on 
one bill. Everybody from OHV users, conservationists, hunters, hikers 
and many others. I am especially pleased to see that a popular area 
known as the Joaquin Rocks would be permanently protected as Wilderness 
in this bill.
    Finally, I hope that today's hearing will give us an opportunity to 
discuss the merits of installing a plaque at the World War II Memorial 
with a prayer that President Franklin Roosevelt recited to the Nation 
shortly after the D-Day invasion began. The Allied invasion on D-Day 
involved tens of thousands of servicemen many of whom never returned 
from battle. President Franklin Roosevelt spoke to the American people 
on June 6, 1944 to comfort and offer prayer to those anxiously awaiting 
news of the invasion. I believe it was admirable of President Roosevelt 
to speak directly to the American people and offer prayer, however, I 
do have concerns about whether having a prayer installed at the World 
War II Memorial would go against one of the countries founding 
principles, the separation between church and State. Also would this 
alienate some veterans who sacrificed their lives for this country but 
may not have shared the same religious beliefs as President Roosevelt 
or others?
    I look forward to the opportunity to hear from today's witnesses 
and ask questions.

                                 ______
                                 

    Mr. Bishop. We are going to turn to the first panel of 
witnesses. We have a couple here: Mr. DeFazio, who does have a 
bill, as well as Mr. Johnson is here and former Senator Allard 
is here with us on the first panel. We are going to add Mr. 
Farr, Mr. Meadows, and former Representative Shuler here when 
they arrive. So we will proceed on with that.
    Mr. DeFazio, if you would like to go first to recognize 
your bill, which has a number, and it is there somewhere, and I 
am sure it is wonderful.
    Mr. DeFazio. Yes, it is. You will like it, Mr. Chairman.
    Mr. Bishop. You are recognized.

  STATEMENT OF THE HON. PETER A. DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. Oregon Caves 
Revitalization Act, it was actually--President Roosevelt first 
proposed the Oregon Caves as a monument. It was actually not 
designated until the Taft administration, and by then they had 
shrunk the size from 2,500 to 400 acres. The Park Service 
proposed as early as 1939 to expand the monument, and they 
proposed it again in 1949 and 1999 for a couple of reasons.
    One is we now understand the extent of the caves, we 
understand the watershed that feeds the unique River Styx, 
which I invite people to visit. It is the only underground wild 
and scenic river that we have, and it is also a really great 
point we can crawl--you can put on a wetsuit and crawl up 
inside, that is really also very special. I haven't done that 
part.
    And it has a unique, absolutely unique, chateau. If you go 
to visit, it is kind of like going back--they put in cable, but 
some people came and stole all the cable. But now they have 
gotten a radio telephone, that is it. It is a pretty isolated 
area. When you walk in the lobby, there is actually a point 
where a stream runs through the chateau, which is sided by a 
cedar bark, which is extraordinary, built in the 1930s. So it 
is an amazing, amazing place to visit.
    And we need to both preserve it for future generations, and 
potentially increase visitation in a very, very depressed area. 
We have an incredible range of support for this project, and I 
would submit some 30 letters from the local community and the 
counties in that area, if I could, to the record, in support of 
this.
    The Forest Service has no position on this issue. The Park 
Service is advocating for it. The major issue in contention is 
getting some fuel reduction work done. The Forest Service 
hasn't had the budget to do that, and that is critical to the 
watershed of the caves, because this is a dry, hot part of 
Oregon--yes, we have those in the summer, anyway--and we are 
very worried about the threat of fire there. The Park Service 
has committed to going ahead with the needed fuel reduction 
work, should the management pass to them.
    So, we think that this would both benefit the area in terms 
of reducing fire risk, it would certainly benefit the caves, 
the water quality, the visitor experience, and give an 
opportunity for some recreational experience, in terms of 
hiking, which really doesn't exist on the 450-acre monument, 
and the Park Service and the Forest Service hasn't really 
developed trails into that area.
    So, with that, Mr. Chairman, I thank the committee for 
hearing this bill, and I hope that the committee views it 
favorable.
    Mr. Bishop. Thank you. And any written statement you have 
will be added to the record.
    [The prepared statement of Mr. DeFazio follows:]
 Prepared Statement of the Hon. Peter A. DeFazio, a Representative in 
                   Congress from the State of Oregon
    Thank you, Chairman, for holding this legislative hearing and for 
including H.R. 2486, the Oregon Caves Revitalization Act. This is 
important legislation to my district and State.
    The Oregon Caves, often called the ``Marble Halls of Oregon,'' is a 
spectacular place. The caves are located deep inside the Siskiyou 
Mountains and were created over thousands of years as rainwater from 
the ancient forests above dissolved the surrounding marble and created 
one of the world's few marble caves. The complex hydrology and geology 
found at Oregon Caves makes it home to some of the rarest plants and 
animals found on the planet.
    President Howard Taft protected Oregon Caves as a 480-acre national 
monument in 1909--using the authorities of the Antiquities Act. At the 
time, many believed the designation was too small because they rightly 
assumed the central cave was part of a much larger cave system. In 
fact, the initial proposed withdrawal by the Secretary of the Interior 
in 1909 was for more than 2,500 acres.
    Expanding the Oregon Caves National Monument to include the nearby 
caves and the surface streams--that impact the hydrology of the caves 
and provide drinking water for thousands of visitors every year--has 
been attempted numerous times since. National Park system staff 
proposed expansion in 1939--75 years ago this year. Expansion was 
proposed again in 1949. Most recently in 1999 the National Park Service 
finalized a general management plan that called for expanding the 
monument boundaries to include nearby caves, the surface streams, and 
parts of the surrounding watershed to safeguard this incredibly unique 
natural treasure.
    The monument is visited by more than 80,000 people per year--
creating jobs, supporting local businesses, and serving as an economic 
engine in rural Josephine County and the town of Cave Junction. The 
monument also includes a Chateau, opened in 1934, a six-story hotel 
with 23 rooms that features local art work, produce, meats, wines, and 
an Oregon-must: local microbrews. A recent survey by the Park Service 
found that visitors would come more often and stay longer--meaning 
spend more money in the local community--if recreational opportunities 
around the caves were expanded.
    Mr. Chairman, I have been working on an expansion of the Oregon 
Caves National Monument for three Congresses and through a lot of hard 
work and collaboration with local stakeholders and agencies, the Oregon 
Delegation has produced a good bill.
    When the bill was first introduced in the 111th Congress, then-
Oregon Senator Gordon Smith raised concerns about how the bill would 
impact the Park Service's ability to conduct much needed fuel reduction 
work within the expanded boundary. I shared these concerns and we added 
language to direct the Park Service to revise the fire management plan 
for the Monument and to carry out hazardous fuel management activities 
as soon as possible.
    When we heard concerns from local recreational groups about hunting 
and fishing access, we added a specific section clarifying that the 
Secretary ``shall permit hunting, fishing, and trapping on land and 
water within the National Preserve . . .'' In fact, the expanded 
monument area would technically be designated as a ``preserve'' for 
that very reason.
    I have worked with the Forest Service at every level--national, 
regional, and local to clarify that this bill isn't about taking land 
from one Federal agency and giving to another. It's about rationalizing 
the management for the unique Oregon caves system, expanding recreation 
and tourism opportunities, and designating the first subterranean Wild 
and Scenic River--the River Styx.
    I also worked with the Forest Service on language to ensure that 
all existing Forest Service contracts within the proposed expansion 
area are preserved and executed through their completion, and we worked 
with the city of Cave Junction to carve out 4 acres for their water 
treatment plant.
    This bill is long overdue--having been introduced in multiple 
congresses, having received multiple congressional hearings, and having 
now passed out of the Senate Energy and Natural Resources Committee 
unanimously and without amendment. I am hopeful that we can quickly 
move forward to mark this bill up and move it to the Floor of the 
House.
    Mr. Chairman, I also ask for unanimous consent that 40 letters of 
support for this legislation, most of which are from small business 
owners in Cave Junction and Josephine County, be included in the 
official record.
    Finally, I would like to welcome my colleague Congressman Sam Farr 
to the Natural Resources Committee to testify on his bill, the Clear 
Creek National Recreation Area and Conservation Act. It's my 
understanding that this bill has been a little controversial, but I am 
no stranger to controversy when it comes to building a broad coalition 
of stakeholders to accomplish something important for my district. I 
applaud him on his efforts and look forward to hearing from Congressman 
Farr and the rest our witnesses on today's bills.

                                 ______
                                 

    Mr. Bishop. I also have a letter from the National 
Cattleman's Beef Association, the Oregon's Cattleman's 
Association, and the Public Lands Council that will be added to 
the record, as well.
    [The letter submitted by Mr. Bishop for the record 
follows:]
              Letter Submitted for the Record on H.R. 2489
                                                      May 19, 2014.

Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands,
Washington, DC 20515.

Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands,
Washington, DC 20515.

Re: Livestock Industry Opposition to the Oregon Caves Revitalization 
        Act of 2013 (H.R. 2489)

    Dear Chairman Bishop, Ranking Member Grijalva and members of the 
committee:

    The Public Lands Council (PLC), the National Cattlemen's Beef 
Association (NCBA) and Oregon Cattlemen's Association (OCA) oppose the 
Oregon Caves Revitalization Act of 2013 (H.R. 2489) as written. PLC is 
the only national organization dedicated solely to representing the 
roughly 22,000 ranchers who operate on Federal lands. NCBA is the beef 
industry's largest and oldest national marketing and trade association, 
representing American cattlemen and women who provide much of the 
Nation's supply of food and own or manage a large portion of America's 
private property. OCA is a grassroots membership driven organization 
established in 1913; representing Oregon's second largest agricultural 
commodity, cattle and calves, and beef producers who manage a majority 
of the State's 16.5 million acres of farm land.
    The Oregon Caves Revitalization Act of 2013, sponsored by 
Representatives Peter DeFazio (D-Ore), Earl Blumenauer (D-Ore), Kurt 
Schrader (D-Ore) and Suzanne Bonamici (D-Ore) seeks to add 
approximately 4,070 acres of land surrounding the Oregon Caves National 
Monument to the existing designated monument area with the stated goal 
being ``to enhance the protection of the resources associated with the 
Monument'' and ``to increase public recreation opportunities.'' This 
expansion would only farther restrict multiple uses in the surrounding 
area, causing added economic harm to communities in Oregon. Our 
industry supports the continued multiple use management of our Nation's 
public lands and generally opposes special designations which pick 
winners and losers on who can access resources on the those lands.
    In addition to expanding the monument, PLC, NCBA and OCA strongly 
oppose the provision which seeks to limit and potentially ultimately 
retire livestock grazing on the monument. On its face this bill seeks 
to ``grandfather in'' existing grazing practices. However, the trend 
over time is undeniable: grazing numbers are reduced either by direct 
agency decisions, or because the cost of doing business in the 
designated area simply becomes prohibitive. The same is true for 
``voluntary'' grazing lease or permit relinquishment. Too often, 
ranchers feel that they have no choice but to ``voluntarily'' 
relinquish their grazing permits due to pressure from radical 
environmental groups, or rising and prohibitive costs to operating on 
public land within a specially designated area. This is concerning 
considering that 40 percent of the Nation's cattle, and 50 percent of 
the Nation's sheep herds spend some time on public lands. The 
diminished presence of ranchers and livestock on the range contributes 
to the degradation of range health on Federal lands, and encourages the 
ex-urban development of the associated private lands. PLC, NCBA and OCA 
oppose permanent retirement of grazing permits.
    Section 5(b) of H.R. 2489 states that the Secretary concerned 
``shall revise the fire management plan for the Monument to include the 
National Preserve and, in accordance with the revised plan, carry out 
hazardous fuel management activities within the boundaries of the 
National Monument and Preserve.'' PLC, NCBA and OCA contend that 
livestock grazing is the most efficient and cost effective method of 
fine fuels reduction on the range, and should therefore be used as a 
preferred fire prevention tool on public lands--not diminished as this 
bill would no doubt lead to.
    We appreciate the opportunity to provide input on behalf of our 
members--the Nation's food and fiber producers. While we recognize the 
need to make boundary adjustments on Federal lands we strongly oppose 
permanent retirement of grazing permits and request the provision 
allowing for this be removed before the bill is moved out of committee. 
We urge members of the committee to support ranching families and to 
oppose the grazing retirement language included in H.R. 2489.

            Sincerely,
                                       Public Lands Council
                      National Cattlemen's Beef Association
                             Oregon Cattlemen's Association

                                 ______
                                 
    Mr. Bishop. With that, we appreciate it. Let me turn now to 
Congressman Johnson, who has with us here number H.R. 2175, the 
World War II Memorial Prayer Act. I will give you 5 minutes to 
present that bill to us, if you would.

    STATEMENT OF THE HON. BILL JOHNSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Johnson. Well, thank you, Chairman Bishop and Ranking 
Member Grijalva, for having this hearing on this legislation 
that I introduced, H.R. 2175, the World War II Memorial Prayer 
Act. This legislation very simply directs the Secretary of the 
Interior to install at the World War II Memorial a suitable 
plaque or an inscription with the words that President Franklin 
Roosevelt prayed with our Nation on the morning of the D-Day 
invasion. This prayer, entitled, ``Let Our Hearts Be Stout,'' 
gave solace, comfort, and strength to our Nation and to our 
brave warriors, as we fought against tyranny and oppression.
    The World War II Memorial was built to honor the 16 million 
who served in the armed forces of the United States during that 
great conflict, and the more than 400,000 who died during the 
war. Prior to introducing the legislation in 2011, I spoke to 
many World War II veterans in Ohio, and asked them if they 
thought putting this prayer on the memorial would be 
appropriate. The answer was a resounding, ``Yes.''
    It seems to me that if the remaining veterans of World War 
II are supportive of the prayer being added, we, as a country, 
should honor their request. But you don't have to take my word 
for it, because 2 years ago this subcommittee was honored to 
have a constituent of mine, Poppy Fowler, testify in favor of 
this legislation. Poppy is now 90 years old, and served 3 
years, 10 days, 1 hour, and 10 minutes, according to his clock, 
in the U.S. Navy during World War II. He flew 35 missions in 
Air Group 15 on SB2C Helldivers, as both a rear gunner and 
photographer.
    I had the pleasure of escorting Poppy on an honor flight 
trip to visit the World War II Memorial, and we became friends. 
Here is a brief excerpt of Poppy's testimony at the hearing, 
and I quote: ``I feel with no doubt that it would be 
appropriate that this prayer be inscribed in some manner at the 
World War II Memorial. Those reading this prayer will be able 
to recall the sacrifices made by our military, also those on 
the homefront. This prayer came at a perilous time, yet it was 
answered in victory at a dear cost of lives. Today, this prayer 
can pertain to any military action, and under present 
circumstances it is also appropriate.''
    So, I don't think that anyone in this body could be more 
succinct and articulate than Mr. Fowler. Like Poppy, I have no 
doubt that the prayer should be included among the tributes to 
the Greatest Generation memorialized on the National Mall.
    The majority of our colleagues also agreed with Poppy that 
this prayer should be included on the memorial, because on 
January 24, 2012, the legislation here at the House passed, by 
a vote of 386 to 26. Despite the best efforts of Senator Rob 
Portman, the legislation never made it to the Senate Floor for 
a vote. Senator Portman has reintroduced the legislation with 
bipartisan support from Senator Landrieu. And hopefully, this 
is the year that we are able to get the legislation through 
both chambers of Congress and to the President's desk.
    It is vitally important that we move this legislation as 
quickly as possible, because time is of the essence. As some of 
you may know, there is estimated to be just over 1.5 million 
World War II veterans still living. And, furthermore, it is 
estimated that roughly 600 World War II vets are dying every 
day.
    In other words, each week that goes by that we do not pass 
this legislation into law, another 4,000 World War II vets will 
have passed away without seeing this prayer added to the 
memorial.
    So, again, I sincerely thank the Chairman for having this 
important hearing, and getting one step closer to getting this 
prayer placed on the memorial.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Bishop. Thank you. Appreciate that, Mr. Johnson. And 
you are invited to stay with us. Actually, we are going to have 
testimony, I think, very quickly about your bill, if you would 
like to join us on the dais.
    Senator Allard--and I don't mean to insult you by calling 
you ``Senator,'' but you are on the good side here. I am going 
to do an audible here. The bill you are about to discuss, the 
two Members, the two Members who will be talking about it, are 
scheduled to arrive around 10:00.
    Mr. Allard. I see.
    Mr. Bishop. If you have a busy schedule, we will take your 
testimony now. If you would like to wait and do it at the same 
time they do, I will postpone it until then.
    Mr. Allard. As long as I get out in plenty of time before 
noon, there is not a problem. I do have a meeting at noon.
    Mr. Bishop. All right. If we are not done by noon----
    Mr. Allard. Thank you. Thank you, Mr. Chairman. Appreciate 
it.
    Mr. Bishop [continuing]. We all turn back to glass 
slippers.
    Mr. Allard. Thank you.
    Mr. Bishop. So let me ask you just to stay there for a 
minute, and then invite from the Interior Department Mr. Bruce 
Sheaffer up to one of the microphones.
    And I am going to mess up your name, I apologize. Is it 
Lenise Lago?
    Ms. Lago. Yes.
    Mr. Bishop. I didn't mess it up? I will try and do that 
better next time. Ask you to come up here.
    And, Mr. Johnson, if you would like to stay, they are going 
to be testifying about your bill. So I don't know what your 
schedule is----
    Mr. Johnson. I have another hearing, Mr. Chairman. I have 
to run----
    Mr. Bishop. I know. This is personal. You are going to 
leave anyway, right?
    [Laughter.]
    Mr. Bishop. Thank you. I appreciate you being here.
    What I would ask you to do, then, start with Mr. Sheaffer. 
I think you are testifying to--on both bills, right, on the 
part of the Park Service? If you would just speak to the 
DeFazio bill and the Johnson bill only; you do not need to use 
the full time, but we will be talking about the other bills 
later.

    STATEMENT OF BRUCE SHEAFFER, COMPTROLLER, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Sheaffer. All right, Mr. Chairman. I will have a 
statement for the record, which I believe you already have. I 
will read a summary of those--on those two provisions.
    The first, the 2175, World War II Memorial. H.R. 2175 
directs the Secretary of the Interior to install in the area of 
the World War II Memorial a suitable plaque or an inscription 
with the words that President Roosevelt prayed with the 
citizens of the United States on June 6, 1944, the morning of 
D-Day.
    The Department appreciates the importance of faith in the 
lives of Americans across the country, the leadership of 
President Roosevelt, and the courage and sacrifices of 
Americans during World War II and today. The World War II 
Memorial recognizes a period of unprecedented national unity 
during the defining moment of the 20th century, and is devoted 
to the service, commitment, and shared sacrifice of Americans. 
The Department supports the continued application of the 
Commemorative Works Act, which states that the Secretary of the 
Interior shall design, procure, prepare, install the plaque or 
inscription, adhering to the important design review process in 
public consultation.
    We look forward to working with the Commission of Fine Arts 
and National Capital Planning Commission in designating an 
appropriate inscription and logistical plaque location, should 
this legislation be enacted.
    Regarding H.R. 2489, the Oregon Revitalization Act, H.R. 
2489 would adjust the boundary of Oregon Caves National 
Monument to include the addition of approximately 4,000 acres 
to enhance the protection of resources associated with the 
monument, and to increase quality recreation opportunities. The 
lands that would be added are currently managed by the U.S. 
Forest Service, as part of the Rogue River-Siskiyou National 
Forest. The Department supports H.R. 2489, which is consistent 
with the general management plan for the Park.
    The bill contains a number of provisions related to the 
transfer of land from the Forest Service to the Park Service. 
These concern fire management, hunting, fishing, and grazing. 
We would like the opportunity to work with committee, the 
sponsor, Forest Service, and the Bureau of Land Management on 
grazing provisions.
    The bill would also designate the subterranean segment of 
Cave Creek as a scenic river under the Wild and Scenic Rivers 
Act, and it would authorize a study of several other river 
segments for wild and scenic river designation.
    [The prepared statement of Mr. Sheaffer on H.R. 2175 and 
H.R. 2489 follows:]
   Prepared Statement of Bruce Sheaffer, Comptroller, National Park 
  Service, U.S. Department of the Interior on H.R. 2175 and H.R. 2489

       On H.R. 2175, ``World War II Memorial Prayer Act of 2013''
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 2175, a bill which directs the Secretary of the Interior to 
install in the area of the World War II Memorial in the District of 
Columbia a suitable plaque or an inscription with the words that 
President Franklin Delano Roosevelt prayed with the United States on 
June 6, 1944, the morning of D-Day.
    The Department appreciates the importance of faith in the lives of 
Americans across this country, the leadership of President Roosevelt, 
and the courage and sacrifices of Americans during World War II and 
today. The World War II Memorial recognizes a period of unprecedented 
national unity during the defining moment of the twentieth century, and 
is devoted to the service, commitment, and shared sacrifice of 
Americans.
    H.R. 2175 proposes adding a commemorative work in the area of the 
existing World War II Memorial. We support the continued application of 
the Commemorative Works Act (CWA). Section 2 of this bill states that 
the Secretary of the Interior shall design, procure, prepare, and 
install the plaque or inscription, thus allowing the NPS to determine 
the placement and design of the plaque. However, section 3 of the bill 
requires a different method of designing and locating the plaque or 
inscription than is provided in the CWA. The CWA process incorporates 
important design reviews and public consultation. We support retaining 
the CWA as the vehicle for siting and designing this plaque or 
inscription.
    The World War II Memorial was authorized on May 23, 1993, by Public 
Law 103-32. In 1994, Congress approved its placement in the area 
containing the National Mall through Public Law 103-422. Its location 
at the site of the Rainbow Pool was approved in 1995 by the NPS on 
behalf of the Secretary of the Interior, the Commission of Fine Arts 
(CFA), and the National Capital Planning Commission (NCPC). In July 
1997, the CFA and the NCPC reaffirmed prior approvals of the Rainbow 
Pool site in recognition of the significance of World War II as the 
single-most defining event of the 20th Century for Americans and the 
world. Even so, there were challenges to the establishment of this 
memorial. The design we see today was painstakingly arrived upon after 
years of public deliberations and spirited public debate.
    The National Capital Memorial Advisory Commission (NCMAC) reviewed 
a proposal similar to the one before the committee today at its meeting 
on September 14, 2011, and determined that no additional elements 
should be inserted into this carefully designed Memorial. The American 
Battle Monuments Commission (ABMC), charged by the Congress in Public 
Law 103-32 to design and build the World War II Memorial, is 
represented on the NCMAC, and thus concurred with that determination.
    If directed by Congress pursuant to this legislation, the NPS will 
work to find an appropriate location for the plaque in accordance with 
the CWA process, as directed in section 3 of this legislation.
    That concludes our prepared testimony on H.R. 2175, and we would be 
happy to answer any questions you may have.
       On H.R. 2489, ``Oregon Caves Revitalization Act of 2013''
    Mr. Chairman and members of the committee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 2489, a bill to modify the boundary of the Oregon Caves National 
Monument, and for other purposes.
    The Department supports H.R. 2489, which is consistent with the 
General Management Plan (GMP) for the park.
    H.R. 2489 would adjust the boundary of Oregon Caves National 
Monument to include the addition of approximately 4,070 acres to 
enhance the protection of resources associated with the monument and to 
increase quality recreation opportunities. The lands that would be 
added are currently managed by the U.S. Forest Service (USFS) as part 
of the Rogue River-Siskiyou National Forest.
    H.R. 2489 directs the Secretary to revise the fire management plan 
for the Monument to include transferred lands and carry out hazardous 
fuel management activities under that plan. Existing Forest Service 
stewardship or service contracts would continue to completion under the 
authority of the Secretary of Agriculture.
    The bill would authorize the Secretary to permit hunting and 
fishing within the Preserve. It also provides flexibility in managing 
the resources within the preserve by allowing the Secretary, in 
consultation with the Oregon Department of Fish and Wildlife, to limit 
hunting and fishing in designated zones and over certain time periods. 
Based on information collected during the public participation process 
for the GMP, we would prefer to terminate hunting within the preserve 
after 5 years with the acreage being converted to national monument 
status. Of the 892 comments received on the plan, only 8, less than 1 
percent, expressed concern about the loss of hunting should the added 
acres be designated as part of the national monument.
    H.R. 2489 would authorize the Secretary to allow grazing to 
continue within the Preserve at a level not greater than authorized 
under existing permits or leases at enactment. It would also direct the 
Secretary to accept voluntary donation of a grazing lease or permit for 
the Big Grayback Grazing Allotment (managed by the USFS) and the Billy 
Mountain Grazing Allotment (managed by the Bureau of Land Management) 
and terminate the donated lease or permit and ensure a permanent end to 
grazing on the land covered by the permit or lease. Claim to any range 
improvements on those lands would be waived. It is our understanding 
that the same individual runs livestock on both the Big Grayback and 
Billy Mountain Allotments. We would like the opportunity to work with 
the committee and sponsor on minor modifications to these grazing 
provisions.
    This bill would also designate the subterranean segment of Cave 
Creek, known as the River Styx, as a scenic river under the Wild and 
Scenic Rivers Act. Additionally, the bill would authorize a study of 
segments of Cave Creek, Lake Creek, No Name Creek, Panther Creek and 
Upper Cave Creek--all within the Monument and Preserve--under the Wild 
and Scenic Rivers Act.
    In 1907, the Secretary of the Interior withdrew approximately 2,560 
acres for the purposes of establishing a national monument. The 1909 
Presidential proclamation establishing Oregon Caves National Monument 
included only 480 acres. The monument was managed by the USFS until its 
administration was transferred to the National Park Service (NPS) in 
1933. The remaining withdrawal outside of the monument is administered 
by the USFS as part of the Rogue River-Siskiyou National Forest. H.R. 
2489 would mirror the 1907 withdrawal and adds some additional lands to 
conform the monument boundary to the watershed.
    The explorer Joaquin Miller extolled ``The Wondrous marble halls of 
Oregon!'' when speaking about the newly proclaimed Oregon Caves 
National Monument in 1909. Oregon Caves is one of the few marble caves 
in the country that is accessible to the public. This park, tucked up 
in the winding roads of southern Oregon, is known for its remoteness, 
the cave majesty and unusual biota. The stream flowing from the cave 
entrance is a tributary to a watershed that empties into the Pacific 
Ocean. This is the only cave in the national park system with an 
unobstructed link to the ocean.
    The caves are nationally significant and a favorite visit for 
school kids and travelers alike. They remain alive and healthy because 
of the watershed above them. The park recognized this when developing 
the 1998 GMP and accompanying Environmental Impact Statement. The plan 
recommended the inclusion of the watershed into the park to provide for 
better cave protection and to protect the surface and subsurface 
hydrology and the public water supply.
    If H.R. 2489 were enacted, there would be no acquisition costs 
associated with the boundary expansion and we estimate NPS's 
management, administrative, interpretive, resource protection, and 
maintenance costs to be approximately $400,000 to $550,000 annually. 
The NPS has been coordinating with the USFS on new signage along the 
Caves Highway; on the operation of the Illinois Valley Visitor Center 
in Cave Junction; and on the annual agreement for wildland fire 
suppression and dispatch services at the Monument.
    Mr. Chairman, this concludes my statement on H.R. 2489. I would be 
happy to answer any questions that you may have.

                                 ______
                                 

    Mr. Bishop. Thank you. Now, Ms. Lago, I understand you are 
only talking about 2489, right?
    Ms. Lago. That is correct.
    Mr. Bishop. Does any--I don't have any questions. Let me 
address simply to Mr. Johnson's bill, 2175, about the World War 
II Memorial Prayer Act. Do you have any questions on that 
particular Act? I don't. Mr.----
    Mr. Grijalva. And that is the memorial?
    Mr. Bishop. Yes, the memorial.
    Mr. Grijalva. Yes. If I----
    Mr. Bishop. Mr. Sheaffer?
    Mr. Grijalva. Yes.
    Mr. Bishop. You are recognized.
    Mr. Grijalva. Thank you. Mr. Sheaffer, one of the questions 
that was forwarded to our office--let me just--would installing 
a prayer at the World War II Memorial set any precedent? Have 
there been other efforts to do that? And are you aware of any 
other religious--any other religion to install plaques or 
inscriptions on memorials, that you know of?
    Mr. Sheaffer. On the first question, this is very similar, 
if not identical, to the Bob Dole plaque that had been 
installed at the direction of Congress at the World War II 
Memorial. So it is clearly not a precedent-setting event here.
    Regarding religious inscriptions, there are numerous 
religious inscriptions on memorials, and even in Washington, 
DC. So that is not precedent-setting, either.
    Mr. Grijalva. It was raised as a separation issue in a 
communication we received. What you just stated there, in terms 
of it is not a precedent and here are other examples, if you 
could forward that to the committee, that would be very useful 
information, in terms of attempting to deal with that question.
    Mr. Sheaffer. We would be happy to, Mr. Grijalva.
    Mr. Grijalva. Thank you.
    Mr. Bishop. Anything else?
    Mr. Grijalva. No.
    Mr. Bishop. All right, thank you.
    Then, Ms. Lago, we will ask for your testimony on 2489 on 
behalf of the Forest Service.

STATEMENT OF LENISE LAGO, DEPUTY CHIEF OF BUSINESS OPERATIONS, 
      U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Lago. Yes, sir. Thank you, Mr. Chairman, Mr. Ranking 
Member. In light of my colleague's testimony on H.R. 2489, I 
would just like to point out a couple of issues of importance 
to the Forest Service.
    The first is that I would note that the bill provides for 
continuation for contracts that are already underway on the 
Forest Service-managed portion of the proposed monument. In 
addition to service and stewardship contracts, which are called 
out in the language, I would like to point out we have a 
watershed improvement contract work underway. We would just 
like the understanding and the flexibility to continue with 
more than just stewardship and service contracts. Be happy to 
work with either the committee or the Park Service on 
tightening that up.
    In addition, we think there could be some improvements in 
the proposed boundary to better meet administrative needs 
between Forest Service and Park Service, squaring off corners, 
tying to natural features on the landscape. Again, we would be 
happy to work with the committee, the Park Service, on that.
    And finally, we would like to include in the bill language 
that the bill becomes self-executing upon enactment. We think 
that would greatly speed up the transfer between the two 
agencies and make it administratively easier to move forward. 
Thank you.
    [The prepared statement of Ms. Lago follows:]
 Prepared Statement of Lenise Lago, Deputy Chief, Business Operations, 
    U.S. Forest Service, U.S. Department of Agriculture on H.R. 2489
    Mr. Chairman, Ranking Member, and members of the subcommittee, 
thank you for the opportunity to provide the Administration's views on 
H.R. 2489, the Oregon Caves Revitalization Act of 2013.
    H.R. 2489 would modify the boundary of the Oregon Caves National 
Monument, managed by the National Park Service (NPS), to include 
approximately 4,070 acres of land currently managed by the Rogue River-
Siskiyou National Forest (Forest). The Monument would be designated as 
the Oregon Caves National Monument and Preserve, with the Preserve 
being comprised of the lands previously managed by the Forest. The bill 
would allow for termination of grazing use on a Forest Service-managed 
grazing allotment, a portion of which would be located within the 
Preserve. The bill would also designate a river segment as part of the 
National Wild and Scenic Rivers System.
Ongoing Forest Activities that may be impacted by a transfer of 
        jurisdiction include:

  1.  The Sucker Creek Legacy Roads environmental assessment, which is 
            scheduled to be completed in this fiscal year. 
            Implementation of this project, as proposed, would restore 
            and maintain approximately 13 miles of National Forest 
            System roads and decommission 2 miles within the Preserve.
  2.  The Pepperbuck Thinning and Fuel Reduction project, in 
            cooperation with the non-profit organization Lomakatsi 
            Restoration, would be entirely within the Preserve. In 
            addition to hazardous fuels treatments, the project 
            includes in-progress commercial and pre-commercial thinning 
            in Late Successional Reserves (LSRs) stands. It would be 
            desirable for these projects to continue.

Other impacts of a transfer of jurisdiction may include:

    <bullet> The USFS Cave Creek Campground would be located in the 
            proposed transfer.
    <bullet> The Forest has completed Wild and Scenic Rivers 
            eligibility studies for the tributaries of the Illinois 
            River and other rivers. Cave Creek is within the current 
            boundaries of the Monument. Lake Creek and No Name Creek in 
            the proposed expansion were also included in the 
            eligibility studies. Any needed Eligibility studies and 
            subsequent Suitability analysis requirements would transfer 
            to the Preserve.

Relinquishment and Retirement of Grazing Permit
    Grazing on the portion of the approximately 26,750-acre Big Gray 
back Grazing Allotment (BGGA), located in Josephine and Jackson 
counties, which would be in the Preserve, could continue at the current 
level and would be managed under laws applicable to the NPS.
    Section 6 would direct the Secretary concerned to accept any 
voluntary relinquishment of a grazing permit by the permit holder for 
grazing on the Forest Service managed BGGA, and if such a 
relinquishment is received, to end grazing on that area. Under H.R. 
2489 only a small portion of the BGGA would become part of the 
Preserve, but the legislation would potentially end grazing on the 
large part of the BGGA located outside the Preserve if the grazing 
permittee relinquishes the grazing permit. We look forward to working 
with the committee to address grazing management issues.
Conclusion
    The expansion boundary, as currently proposed, could be adjusted in 
places so that the new boundary better facilitated future management by 
both Agencies. This adjustment will require further discussion between 
the Forest Service and NPS. We also would recommend that the bill be 
modified to be self-executing.
    Coordination will continue as we move forward to ensure that the 
best and most efficient resource management is accomplished. I would be 
pleased to answer any questions you may have.

                                 ______
                                 

    Mr. Bishop. All right, let me ask for questions on the 
DeFazio bill, 2489, specifically to that. Mr. Tipton, you have 
questions on that one? Mr. Grijalva, do you have questions on 
that one? Let me ask a couple if I could, here, just to 
satisfy.
    Ms. Lago, did the Forest Service provide any input in the 
most recent National Park Service Oregon Caves management plan?
    Ms. Lago. The plan from 1990, we submitted comments. We 
didn't work side by side with the Park Service. But in the 
ensuing--the last several years we have worked very closely 
with the Park Service on joint issues: fuels management 
projects, fire protection, signage for the local community, and 
things like that.
    Mr. Bishop. Does that include the overall management plan, 
though?
    Ms. Lago. Not the management plan specifically. No, sir.
    Mr. Bishop. All right. In your testimony you wrote, ``The 
expansion boundary is currently proposed, could be adjusted in 
places so the new boundary better facilitated future management 
by both agencies. This adjustment will require further 
discussion between the Forest Service and NPS.'' This proposal 
has been around for a number of years. When do you expect these 
further discussions to continue with the Park Service? And how 
receptive has the Park Service been to your input?
    Well, let's just do the first question. When do you expect, 
actually, these discussions to conclude, then?
    Ms. Lago. So folks in the region and on the forest--in 
other words, the local Forest Service folks--have developed 
some alternatives to the current proposed monument boundary. 
They include sticking with natural features of the landscape. 
There is an old fence line. We are just suggesting that it 
would make it easier to survey. And because it would be easier 
to survey, it would be easier to post, and just be easier for 
folks to know when they are on what side of the boundary if we 
made some of these adjustments.
    Mr. Bishop. Thank you. Mr. Sheaffer, let me do a couple for 
you.
    How would the Park Service approach to fire management be 
different from the Forest Service approach?
    Mr. Sheaffer. I believe what we would do--and I can't tell 
you that it is different from what they have done, because I 
know there have been discussions on the ground. But, clearly, 
there would be a fuels management plan put in place immediately 
to mitigate fire impacts in the area. That has been a--what I 
thought was a fairly clear distinction in the way we were 
approaching it. But I don't know for a fact that they are not 
amenable to that sort of approach.
    Mr. Bishop. All right. Can you explain the danger that 
would be posed to the caves if continued Forest Service 
management?
    Mr. Sheaffer. I think it is best described that our 
concerns would be--our primary mission there would be to ensure 
the watershed preservation of the cave. I am not suggesting 
that they aren't sharing that concern right now, but that 
clearly is a primary mission of the Park Service. And all of 
the activities that are allowed now at whatever levels would be 
reviewed to ensure that they could or should continue in the 
areas they are in, to ensure the preservation of the cave 
resource.
    Mr. Bishop. Ms. Lago, does the Forest Service take that 
into consideration right now? The watershed.
    Ms. Lago. Oh, yes, we do.
    Mr. Bishop. Mr. Sheaffer, why are you going to terminate 
hunting on the proposed monument expansion?
    Mr. Sheaffer. I think the bill allows for hunting to 
continue. The thought would be that there may be some areas 
where hunting is currently allowed that should be restricted. 
Actually, in the public input that we got in the general 
management plan preparation, hunting was not necessarily an 
activity that there was a great deal of enthusiasm for. So we 
would have to revisit all of those issues, and are committed to 
doing so, if this bill is enacted, to see where it would be 
best allowed, and had least impact on the cave resources.
    Mr. Bishop. So is--what you are telling me is your 
preference is to terminate, even though it is not allowed in 
the--even though it is not mandated in the legislation?
    Mr. Sheaffer. I think it might be too early to say that, 
definitively. But I believe that the people on the ground would 
say there are some areas where it would be preferred to be 
phased out, yes.
    Mr. Bishop. But your testimony clearly says that is your 
preferred option.
    Mr. Sheaffer. It does.
    Mr. Bishop. Even though your verbal statement does not.
    Mr. Sheaffer. That is correct. I suppose that, in that 
regard, I am qualifying it a bit. But, yes, I think it is the 
preferred action of the people on the ground.
    But they also are committed to going through a public 
process before any final decisions are made.
    Mr. Bishop. Well, not if we pass it first, you won't. But I 
appreciate that.
    I don't have any other questions. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Just want to get a 
little clarity on the hunting. Is hunting currently allowed?
    Ms. Lago. Yes, it is----
    Mr. Tipton. Hunting? Is that currently allowed in this 
area?
    Ms. Lago. It is, outside the cave monument boundary, yes.
    Mr. Tipton. OK. And when we are talking about some of the 
public comment, I was just trying to follow up on what I think 
I was hearing, that there wasn't a lot of public interest in 
that, in terms of some of the comment period. If it is already 
allowed, why would they comment? Wouldn't they assume that they 
could continue to hunt?
    Mr. Sheaffer. No. I think probably that was--public 
comments are open and received, and that was one of the topics 
that they, the public, addressed. And again, this is a plan 
done back in 1998. So the comments received then were not 
overwhelmingly in favor of hunting at all. In fact, there was a 
very limited number of people who were concerned with hunting 
continuing there.
    Mr. Tipton. OK. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I appreciate that. I do see a couple 
of--I was waiting for Congressman Farr to be here, as well. He 
has not yet shown up.
    So, Mr. Allard, I am not going to let you wait any longer 
from here. We are going to take testimony, your testimony, on 
1776.
    Could I ask the two witnesses if they would exchange for 
just a second here? Mr. Meadows and former Congressman Shuler--
sorry. See how quickly you forget here? Let me ask you if you 
would come to the podium first. And, Mr. Allard, we will take 
your testimony on 1776. Then I will hear from Mr. Meadows on 
3806, and Mr. Shuler on 3806, and then we will add the 
witnesses from the Park Service and the Interior Department--
no, you are good. You are done, aren't you?
    Ms. Lago. Probably.
    Mr. Bishop. Yes. You can stay as long as you want to, but 
you don't have to.
    We will invite the Interior Department, as well as some 
other witnesses, back up here to talk about these two bills.
    So, Senator Allard, can I have you go ahead of 
Representative Farr and talk about this particular piece of 
legislation?

   STATEMENT OF WAYNE ALLARD, VICE PRESIDENT FOR GOVERNMENT 
          RELATIONS, AMERICAN MOTORCYCLIST ASSOCIATION

    Mr. Allard. Thank you, Mr. Chairman, and good morning. Good 
morning, Ranking Member Grijalva, and distinguished members of 
the committee. Thank you for inviting me to testify today in 
support of H.R. 1776, the Clear Creek National Recreation Area 
and Conservation Act.
    The Clear Creek Management Area, which I will refer to in 
my testimony as the CCMA, is of vital importance to the off-
highway vehicle community in the West. The 75,000 acres of the 
CCMA have been ranked as one of the top 10 places to ride by 
Dirt Rider Magazine, the most popular motorcycle magazine of 
its type, and formerly hosted the Quicksilver Enduro, a 
nationally recognized event, for over 30 years, from 1983 until 
2007. The event was designated the National Enduro by the 
American Motorcyclist Association.
    As you are aware, this bill would create the country's 
first national OHV, or off-highway vehicle area, guaranteeing 
future access for off-highway vehicle enthusiasts who visit 
central California to ride in the management area. 
Representative Paul Cook's bill, H.R. 1676, would also create a 
similar national OHV area to guarantee permanent access to 
Johnson Valley in Southern California.
    If the bill is not passed, the Bureau of Land Management's 
Record of Decision issued in February of this year will stand. 
Under the current Record of Decision, the Serpentine Area of 
Critical and Environmental Concern, which I am referring to as 
the ACEC, would be closed to all off-highway vehicles, and be 
open only to street-legal, registered vehicles for 5 days per 
year.
    The result of this closure would severely limit OHV access 
in the entire management area in several important ways.
    First, many staging areas are located in the Serpentine 
ACEC because it is one of the largest open areas that can 
accommodate riders. There are on-highway vehicles and OHVs, 
which generally require trailers and trucks to transport. As a 
result, under the current management plan, OHV enthusiasts are 
able to camp at the Jade Mill Campsite, which resides in the 
Serpentine ACEC, but are unable to use the campsite as a 
staging area, since no OHVs are permitted on trails or roads 
within the Serpentine ACEC.
    Second, and perhaps more importantly, the Serpentine area 
sits in the middle of the management area. Many trails run 
through the Serpentine area, and restricting access would 
fragment or eliminate many of these historically used OHV 
routes.
    Third, under the current RoD, visitors take part in 
motorized recreation, are allowed to enter the CCMA only 5 days 
per year, while non-motorized visitors can enter 12 days. Thus, 
riders are limited to potentially less than two weekends of 
visitation. This is an especially difficult pill to swallow, 
not only because it is discriminatory, but also because many 
riders travel long distances and arrive late on Friday and 
leave on Sunday.
    Finally, the RoD has the potential to limit the total 
overall number of visitors. It gives the BLM State director the 
ability to limit the total number of daily visitors to the 
area. Thus, with the administrative swipe of a pen, access can 
be denied to one of the best places to ride in the country.
    Representative Farr's H.R. 1776 would fix all of these 
short-comings. Reverting to the 2005 Clear Creek Management 
Area Travel Management Plan would still close some historical 
OHV trails. It would still establish a designated system of 
trails in the CCMA. However, the 2005 plan would ensure access 
to a network of routes 218 miles long, according to the 2005 
plan. The routes would offer a variety of course combinations 
that can be varied from year to year. Competitive events would 
be allowed to return to the CCMA.
    Importantly, the Serpentine ACEC would remain open to OHVs. 
This would allow riders to use the Jade Mill Campsite as a 
staging area, and access longer and more challenging trails 
directly from camp. Additionally, it would relieve other trails 
from the possibility of over-use.
    The largest change from the 2005 plan is that the BLM would 
be required to charge fees to access the area. These fees would 
be used to maintain and improve the Clear Creek Management 
Area. By creating a special account for the fees, H.R. 1776 
ensures the fees will be used at the recreation area for needed 
maintenance and enhancement, and not in projects across the 
country. Even in 2005, the BLM recognized the areas for OHV 
recreation, even as the popularity of OHV riding has increased.
    I hope we can move this legislation, so that the 50,000 
riders that enjoyed the Clear Creek Management Area in 2003 can 
do so again in 2014.
    Thank you, Mr. Chairman, for your time. I look forward to 
answering any questions that you may have.
    [The prepared statement of Mr. Allard follows:]
 Prepared Statement of Wayne Allard, American Motorcyclist Association 
                              on H.R. 1776
    Chairman Bishop, Ranking Member Grijalva and distinguished members 
of the committee, thank you for inviting me to testify today in support 
of H.R. 1776, the Clear Creek National Recreation Area and Conservation 
Act.
    The Clear Creek Management Area (CCMA) is of vital importance to 
the off-highway-vehicle community in the West. The 75,000 acres of the 
CCMA have been ranked as one of the top 10 places to ride by Dirt Rider 
magazine--the most popular motorcycle magazine of its type--and 
formerly hosted the Quicksilver Enduro, a nationally recognized event 
for over 30 years. From 1983 until 2007, the event was designated a 
National Enduro by the AMA.
    As you are aware, this bill would create the country's first 
national OHV area, guaranteeing future access for off-highway-vehicle 
enthusiasts who visit central California to ride in the management 
area. Rep. Paul Cook's bill, H.R. 1676, would also create a similar 
national OHV area to guarantee permanent access to Johnson Valley in 
southern California.
    If this bill is not passed, the Bureau of Land Management's Record 
of Decision, issued in February of this year, will stand.
    Under the current record of decision, the Serpentine Area of 
Critical Environmental Concern (ACEC), would be closed to all off-
highway-vehicles and be open only to street legal, registered vehicles 
for 5 days per year.
    The result of this closure would severely limit OHV access in the 
entire management area in several important ways.
    First, many staging areas are located in the Serpentine ACEC, 
because it is one of the largest open areas that can accommodate 
riders, their on-highway vehicles and OHVs--which generally require 
trailers and trucks to transport. As a result, under the current 
management plan, OHV enthusiasts are able to camp at the Jade Mill 
campsite, which resides in the Serpentine ACEC, but are unable to use 
the campsite as a staging area, since no OHVs are permitted on trails 
or roads within the Serpentine ACEC.
    Second, and perhaps more importantly, the Serpentine area sits in 
the middle of the management area. Many trails run through the 
Serpentine area, and restricting access would fragment or eliminate 
many of these historically used OHV routes.
    Third, under the current ROD, visitors taking part in motorized 
recreation are allowed to enter the CCMA only 5 days per year, while 
non-motorized visitors can enter 12 days.
    Thus, riders are limited to potentially less than two weekends of 
visitation. This is an especially difficult pill to swallow not only 
because it is discriminatory, but also because many riders travel long 
distances and arrive late on Friday and leave on Sunday.
    Finally, the ROD has the potential to limit the total overall 
number of visitors. It gives the BLM State director the ability to 
limit the total number of daily visitors to the area. Thus, with the 
administrative swipe of a pen, access can be denied to one of the best 
places to ride in the country.
    Rep. Farr's H.R. 1776 would fix all of these shortcomings.
    Reverting to the 2005 Clear Creek Management Area Travel Management 
Plan would still close some historical OHV trails. It would still 
establish a designated system of trails in the CCMA.
    However, the 2005 plan would ensure access to a network of routes 
218 miles long. According to the 2005 plan, the routes ``would offer a 
variety of course combinations that can be varied from year to year.''
    Competitive events would be allowed to return to the CCMA.
    Importantly, the Serpentine ACEC would remain open to OHVs.
    This would allow riders to use the Jade Mill campsite as a staging 
area and access longer and more challenging trails directly from camp. 
Additionally, it would relieve other trails from the possibility of 
over use.
    The largest change from the 2005 plan is that the BLM would be 
required to charge fees to access the area. These fees would be used to 
maintain and improve the Clear Creek Management area. By creating a 
special account for the fees, H.R. 1776 ensures the fees will be used 
at the recreation area for needed maintenance and enhancement and not 
on projects across the country.
    Even in 2005, the BLM recognized that areas for OHV recreation were 
decreasing--even as the popularity of OHV riding has increased.
    I hope we can move this legislation, so that the 50,000 riders that 
enjoyed the Clear Creek Management Area in 2003 can do so again in 
2014.
    Thank you for your time and I look forward to answering any 
questions you may have.

                                 ______
                                 

    Mr. Bishop. OK. Senator Allard, we have kept you here a 
while. And we have not talked about H.R. 3806 yet. Let me see 
if there are any questions specifically for Senator Allard 
first. Then, if you would like to stay, you are welcome to stay 
and participate. But if you need to go, you need to go.
    Mr. Allard. Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Tipton, do you have any specific questions 
on this bill for Senator Allard? Mr. Grijalva?
    Mr. Grijalva. Yes. If I may, Senator Allard, you, along 
with others, the sponsor of the legislation, Mr. Farr, have 
questioned the whole rationale for the closure, and have said 
that EPA--that the EPA risk assessment is overblown. Could you 
elaborate on the specifics of that risk assessment? In 
particular, where the EPA went wrong with the science? The 
issue being that naturally occurring asbestos in the area and 
some of the conclusions as to the risk to health, to public 
health.
    And, with that, if you wouldn't mind, Senator?
    Mr. Allard. Well, it was in 2008 the Environmental 
Protection Agency put asbestos levels at unacceptably--an 
unacceptable use range. However, the off-highway motor vehicle 
recreation division of the California State Parks conducted a 
study focusing specifically on motorcycle recreation, which 
found that the levels of asbestos are substantially lower than 
the Occupational Health and Safety Administration's daily 
permissible exposure limit, and the amount of ambient asbestos 
in the California study during periods of off-highway 
motorcycle riding was 20 times lower than the EPA's estimate. 
This is lower than what the World Health Organization considers 
acceptable.
    The risk from asbestos in the CCMA is equivalent to smoking 
less than one cigarette per year, I am told. In fact, the EPA 
study found that all-terrain vehicles cause 3 percent more 
dust. However, under the current plan, ATVs are still allowed 
in the Serpentine ACEC, as opposed to motorcycles.
    There is also a study that I have. If the committee does 
not have that study, I would be glad to put it forward so it 
could be included as part of the record.
    Mr. Bishop. OK. Make sure the committee gets a copy of 
that. It will be included as part of the record.
    Mr. Allard. I will, Mr. Chairman.
    Mr. Bishop. Mr. LaMalfa, do you have----
    Mr. Allard. And the title of the study is, ``Preliminary 
Analysis of the Asbestos Exposures Associated with Motorcycle 
Riding and Hiking in the Clear Creek Management Area at San 
Benito County, California''.
    Mr. Bishop. Thank you.
    Mr. Allard. Thank you.
    Mr. Bishop. Mr. LaMalfa, do you have questions for this 
witness? All right.
    I do have just one simple one for you. And I appreciate the 
fact that this bill has been worked by local interest groups on 
the local level. It does create a definitive wilderness area, 
and it allows for off-road vehicle. Would you be opposed to 
strengthening that language, which would mandate and control 
the off-road vehicle levels, so it wouldn't be changed 
administratively in the future?
    Mr. Allard. Well, we would appreciate any effort to make 
sure that the off-highway vehicle opportunities remain as 
described in the bill. And----
    Mr. Bishop. So you would----
    Mr. Allard. Whatever you----
    Mr. Bishop.  I tried to strengthen that language?
    Mr. Allard. Well, if we can strengthen it, yes.
    Mr. Bishop. All right.
    Mr. Allard. Absolutely.
    Mr. Bishop. Thank you. I appreciate that. Senator, with 
that, we conclude the questioning for you. If you would like to 
stay here, we would be happy to have you. If you have other 
obligations, I recognize that at the same time.
    Mr. Allard. I do have other obligations, and I thank the 
Chairman for his consideration.
    Mr. Bishop. Thank you for being here.
    Mr. Allard. Thank you.
    Mr. Bishop. Representative Meadows, Representative Shuler, 
we appreciate you being here. We have not talked about H.R. 
3806. You have the opportunity of presenting it fresh to us.
    Representative Meadows, you are recognized first to talk 
about your bill.
    Mr. Meadows. Thank you, Mr. Chairman, and I am prepared to 
testify. I would ask, if it meets with the Chair's approval, to 
allow the distinguished gentleman from--the previous Member, 
Mr. Shuler, to testify first, to give a context of this, and 
then I would follow up. It is certainly up to the Chair.
    Mr. Bishop. I will be more than happy to do that. It is 
good--Representative Shuler, it is good to have you back here. 
You are a former member of this committee?
    Mr. Shuler. Yes, I was.
    Mr. Bishop. And you haven't noticed this, but if you look 
directly at the room, I've got you on the proper side of this 
room right now.
    Mr. Shuler. Many times you tried. Sometimes it worked.
    Mr. Bishop. All right. Let's turn to you for the first 5 
minutes to introduce the bill.

      STATEMENT OF HEATH SHULER, ASHEVILLE, NORTH CAROLINA

    Mr. Shuler. Thank you, Mr. Chairman, Ranking Member 
Grijalva, and members of the subcommittee. Thank you for the 
opportunity for me to share my thoughts on the importance of 
Congressman Meadows' legislation, H.R. 3806, the Great Smoky 
Mountains National Park Agreement of 2013.
    I want to tell a story about a small community in the 
mountains of North Carolina, the Appalachian region. Swain 
County, less than 10,000 people live in the community. Talking 
about dedication for the 1943 agreement to build the Lake 
Fontana. It was their dedication to help supply energy sources 
to the eastern part of Tennessee to be able to help build 
military planes for World War II. It was that dedication that 
they gave up their land, they gave up their homesites, their 
schools, their businesses, and left the gravesites of their 
loved ones behind.
    With an agreement of North Carolina, TVA, Swain County, and 
the Department of the Interior, they flooded the land and 
created Fontana Lake Reservoir. Fontana Dam is still one of the 
largest dams east of the Mississippi, supplying energy for the 
TVA. When these individuals left the community, and traveled, 
and dispersed elsewhere, they were given an agreement that they 
would have a road built to replace NC-288 so they could go 
revisit the homesites and gravesites of their loved ones. That 
agreement was supposed to build this some 35-mile road into the 
Great Smoky Mountain National Park. That agreement still today 
has a community divided, whether or not we should pay for a 
settlement, or to build this road.
    Up until 2001, the appropriations triggered the National 
Environmental Policy Act, analyzing several options, including 
the completion of this road--an estimated $700 million--or 
cutting through the pristine Great Smoky Mountain National 
Park, or a monetary settlement. The National Park Service 
published a final environmental impact statement on October 2, 
2007, which said that it would advocate a financial settlement 
in lieu of the construction of the road.
    A Record of Decision followed shortly, calling the monetary 
settlement to Swain County of $52 million as the National Park 
Service agency preferred alternative. With the support of both 
North Carolina and the Tennessee delegations, we secured $12.8 
million, a partial settlement for the North Shore Road 
agreement in the Fiscal Year 2010 through the Department of 
Defense Appropriations Act.
    On February 10, a signed ceremony attended by Secretary 
Salazar, four parties agreed to the settlement, calling for a 
$52 million settlement to Swain County, to be paid out over a 
period of years, and this trust that Swain County gave, once 
again, to the Federal Government into keeping up their end of 
the bargain. But yet we find ourselves still asking for the 
remaining balance of the $52 million.
    I want to give you the statement that Secretary Salazar 
gave during this ceremony in Swain County. ``It is not often 
that we can end the 67-year controversy with the stroke of a 
pen, but that is exactly what we are doing. The Federal 
Government is providing a fair settlement to the people of 
Swain County, while ensuring the protection of the Great Smoky 
Mountain National Park.'' And a further press release that they 
gave says, ``Secretary Salazar noted that the settlement is 
good for the people of Swain County because it generates much-
needed revenue.''
    And not only was this reservoir Fontana Lake taken, but it 
folded in the Great Smoky Mountain National Park, so it leaves 
that county with 83 percent federally owned land. So we have a 
low tax base. Again, Swain County was--there was an 
authorization in the Appropriations Act of 2012 for $4 million. 
And, through a technicality, that money is still sitting there 
today, has not been released to Swain County.
    I commend now my congressman, Mark Meadows, for his 
continued effort and his work and his dedication to the people 
of Swain County and to the people of that region, to be able to 
give back to that community. They have honored their agreement, 
and it is time for the Federal Government to continue to honor 
its agreement and pay the money that is so needed for a 
community in Swain County.
    Mr. Chairman, I yield back, and I thank you for the 
opportunity for you and the Ranking Member Grijalva for 
allowing me to be here and testify and ask for your 
consideration and movement of this legislation.
    [The prepared statement of Mr. Shuler follows:]
 Prepared Statement of the Honorable Heath Shuler, Member of Congress, 
      January 3, 2007-January 3, 2013, North Carolina's Eleventh 
                         Congressional District
  H.R. 3806, the Great Smoky Mountains National Park Agreement Act of 
                                  2013
    Chairman Bishop, Ranking Member Grijalva and members of the 
subcommittee, thank you for the opportunity to share with you my 
thoughts on the importance of Congressman Meadows's legislation, H.R. 
3806, the Great Smoky Mountains National Park Agreement Act of 2013.
    I had the honor and privilege of serving North Carolina's Eleventh 
Congressional District from January 3, 2007, through January 3, 2013. 
The District includes Swain County, where I grew up and the subject of 
Congressman Meadows's legislation.
    During my 6 years in office there was one local issue that rankled 
my constituents more than any other--the Federal Government's broken 
promise dating back to the ``1943 Agreement'' between Swain County, the 
U.S. Department of Interior, the State of North Carolina, and the 
Tennessee Valley Authority (TVA).
    As the Federal Government geared-up World War II efforts, a 
dedicated power source was needed to supply facilities in eastern 
Tennessee that were building military planes. The Federal Government 
approached Swain County, North Carolina, with a plan to build Fontana 
Dam and Reservoir. The four aforementioned entities entered into what 
is known as the ``1943 Agreement,'' which allowed the creation of the 
dam with the promise that a new road to replace the flooded 34-mile 
stretch of NC-288 would be built along the north shore of the new lake.
    The original road was a critical lifeline to people in the area. It 
connected Bryson City, the county seat, to Tennessee, and was marked by 
churches, homes, family businesses, schools, and farms. Most of these 
Appalachian treasures disappeared under the rising water of the Fontana 
Lake and what wasn't submerged was folded into the Federal Government's 
control of the Great Smoky Mountains National Park. In fact, the 
Federal Government now owns 83 percent of Swain County's land.
    In the 1960s, the National Park Service (NPS) constructed 
approximately 7 miles of the road before abandoning the effort due to 
environmental impacts and engineering problems. No further Federal 
funding was received for the road until a 2001 appropriation triggered 
a National Environmental Policy Act analysis of several options, 
including either the completion of the road, estimated at $700 million 
and cutting through pristine areas of the Great Smoky Mountains 
National Park, or a monetary settlement. The January 2006 Draft 
Environmental Impact Statement (DEIS) that followed stated that the 
Environmentally Preferred Alternative was to resolve the 1943 Agreement 
through payment of a monetary settlement, valued at $52 million, in 
lieu of any further construction. Over 76,000 comments were received, 
the vast majority in opposition to construction of the road. The Park 
Service published its Final Environmental Impact Statement (FEIS) on 
October 2, 2007, which said it would advocate for a financial 
settlement in lieu of constructing a road. A Record of Decision (ROD) 
followed shortly thereafter officially calling for a monetary 
settlement to Swain County as the National Park Service's Agency 
Preferred Alternative.
    With the support of both the North Carolina and Tennessee 
Congressional Delegations, I secured a $12.8 million partial settlement 
for the North Shore Road Agreement in the Fiscal Year 2010 Department 
of Defense Appropriations Act.
    In a February 2010 signing ceremony attended by former Secretary of 
the Interior Ken Salazar, the four parties signed a new binding 
agreement that called for a $52 million settlement (including the $12.8 
million partial settlement) to be paid to Swain County over a period of 
years in a special trust established for the County. Secretary Salazar 
stated,

        ``It is not often one can end a 67-year-old controversy with a 
        stroke of a pen, but that is exactly what we are doing. The 
        Federal Government is providing a fair settlement to the people 
        of Swain County while ensuring the protection of Great Smoky 
        Mountain National Park.''

    The Park Service's accompanying release continued:

        ``[Secretary] Salazar noted that the settlement is good for the 
        people of Swain County because it generates much needed 
        revenue; good for the department, because it protects the one 
        of America's most treasured parks; and good for the American 
        taxpayers, since building the road would have cost several 
        times more than the settlement.''

    Congress committed another $4 million toward the settlement in the 
Consolidated Appropriations Act of 2012, but NPS has to date refused to 
release the funds over what is at best a technicality. It claims it 
does not have proper authorization because the bill text does not refer 
to the County or the 2010 Agreement. However, the conference report 
included a prioritized project list, specifying $4 million for the 
North Shore Road settlement agreement, making congressional intent 
clear. Further, the Administration also included $4 million for the 
``North Shore Road Monetary Settlement'' in its Fiscal Year 2012 Budget 
request.
    Congressman Meadows's legislation, H.R. 3806, gives the National 
Park Service the explicit authorization it says it requires to release 
the funds. More importantly, H.R. 3806 has the power to end decades of 
distrust and cynicism between the people of Swain County and the 
Federal Government.
    I thank Congressman Meadows for his dedication to this issue and I 
thank the subcommittee for the opportunity to testify before you today.
    I respectfully urge the subcommittee to approve the bill and 
expedite its consideration before the House. Thank you.

                                 ______
                                 

    Mr. Bishop. Thank you. I appreciate that, appreciate you 
being here, and I will tag-team back to Representative Meadows.

    STATEMENT OF THE HON. MARK MEADOWS, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Meadows. Thank you, Mr. Chairman. To follow up, I want 
to thank Congressman Heath Shuler for not giving up.
    On January 2, when he was leaving office, his staff 
diligently was working to try to correct an injustice. And 
where is the injustice? Four million dollars was appropriated, 
and has sat there, and sits there, and sits there, and is yet 
to be paid to the people of Swain County. And we have worked 
diligently for the last 14 months, trying to make sure that 
this money gets released.
    We have a GAO report. Mr. Chairman, I would ask that we 
submit this GAO report for the record.
    Mr. Bishop. So ordered.
    Mr. Meadows. This GAO report shows that, indeed, under 
their guidelines, that it is certainly within the rights of the 
Department of the Interior to release these funds, and to 
actually pay on this commitment. And yet, in talking to the 
comptroller, he has indicated that, without an Act of Congress, 
that this money is going to continue to sit there.
    Now, to put this in context, the original obligation to 
build this road was estimated to be $700 million. And yet, the 
settlement was just a fraction of that. Yet, Swain County has 
gotten just a fraction of that.
    So, I would like to offer two other pieces of information 
for the record. One is the press release that Congressman Heath 
Shuler mentioned, which Secretary Salazar announces the 
settlement on the North Shore Road. And the other is the memo 
of understanding, which has all the appropriate parties, where 
they had signed on to this particular agreement. Thank you, Mr. 
Chairman.
    To go on further, the residents of Swain County, in the 
heat of the battle of World War II, did like most Americans 
did. They sacrificed. They said, ``Sure, we are willing to be 
part of a greater effort,'' to make sure that this was 
identified, and the land was given up. And yet, some 83 percent 
of their land is now on Federal lands. Their unemployment still 
hovers above 10 percent. And all they are wanting is for the 
American government, the Federal Government, to do what they 
said they would do.
    Going back to 1943, that obligation of building a road was 
never committed. Now, in 2010, an agreement was reached, a 
settlement of some $52 million, a part of which has been paid. 
But then we had another $4 million appropriated, and yet it 
continues to sit there. It is our understanding that H.R. 3806, 
being the authorization to release those funds, is what is now 
being required. We humbly ask for the consideration of this 
committee to approve this, so that we can get the payment given 
to the residents of Swain County, and that justice and fairness 
can once again prevail.
    And I stand ready for any questions, Mr. Chairman.
    [The information submitted for the record by Mr. Meadows 
follows:]
                       LETTER SUBMITTED FROM GAO

                                             GAO,  
             U.S. Government Accountability Office,
                                       Washington, DC 20548
                                                 February 14, 2013.

Timothy E. Murphy
Assistant Solicitor--General Legal Services
Office of the Solicitor
Department of the Interior
Washington, DC 20240

Subject: Department of the Interior--Availability of Funds for Payment 
        to Swain County, North Carolina

    Dear Mr. Murphy:

    This responds to your December 21, 2012 letter regarding GAO's 
opinion, B-323699, Dec. 5, 2012. This opinion addressed the Department 
of the Interior's (DOI) use of the National Park Service's (Park 
Service) fiscal year 2012 construction appropriation \1\ to make a 
payment to Swain County, North Carolina pursuant to the Memorandum of 
Agreement Relating to Non-Construction of North Shore Road entered into 
in February 2010 (2010 Agreement). We concluded that although DOI has 
no obligation under the 2010 Agreement to make the payment, DOI may, in 
its discretion, elect to make a payment from an appropriation available 
for that purpose. You have indicated that DOI is considering making a 
payment to Swain County from the Park Service's 2012 Construction 
appropriation.
---------------------------------------------------------------------------
    \1\ Consolidated Appropriation Act, 2012, Pub. L. No. 112-74, div. 
E, title I, 125 Stat. 786, 991-92 (Dec. 23, 2011).
---------------------------------------------------------------------------
    In addition to providing legal decisions and opinions on 
appropriations law issues, GAO, because of its expertise and competence 
in this area of law, will provide informal technical assistance to 
agency officers and employees on appropriations law matters that may 
arise in agency operations.\2\ See GAO, Procedures and Practices for 
Legal Decisions and Opinions, GAO-06-1064SP (Washington, DC: Sept. 
2006), at 10. In that vein, I am happy to offer you my informal 
observations on your proposal based on the information set out in your 
letter.
---------------------------------------------------------------------------
    \2\ In providing informal technical assistance, GAO is not 
executing its statutory authorities to issue appropriations law 
decisions and opinions. Consequently, GAO's informal technical 
assistance may not be characterized as a legal decision, opinion, or 
conclusion of the Comptroller General.
---------------------------------------------------------------------------
    As we stated in our 2012 opinion, the limitation on the 
government's contractual liability in the 2010 Agreement does not, by 
itself, render a lump sum appropriation unavailable to pay the claim 
settled in the Agreement. The limitation serves the government's 
interest, and the discretion to waive the application of the limitation 
is committed to the government. An agency generally has discretion to 
decide how to carry out the objects for which a lump sum appropriation 
is made. So long as DOI determines that a payment to Swain County falls 
within the scope of the Park Service's 2012 Construction appropriation, 
we have no objection to the use of the appropriation to make the 
payment you described in your letter.
    I trust you will find this information useful. If you would like to 
discuss this matter further, please feel free to contact me at (202) 
512-2853 or Omyra M. Ramsingh, Assistant General Counsel for 
Appropriations Law, at (202) 512-6152.

            Sincerely,

                                     Edda Emmanuelli Perez,
                                Managing Associate General Counsel.

                                 ______
                                 

                             PRESS RELEASE

        <bullet> Trail Advisory

        Several trails in the park are temporarily closed. Please check 
        the ``Backcountry Facilities'' section of the Temporary Road 
        and Facilities Closures page for further details. More (http://
        www.nps.gov/grsm/planyourvisit/temproadclose.htm)

                 Secretary Salazar Announces Settlement

                          on North Shore Road

Date: February 6, 2010

Contact: Bob Miller, (865) 436-1207

    Interior Secretary Ken Salazar announced today that a settlement 
has been reached in a dispute begun in 1943 over a proposed 34-mile 
stretch of road through Great Smoky Mountains National Park. Under the 
terms of the agreement signed today by the Department of the Interior, 
Swain County, North Carolina, and Tennessee Valley Authority (TVA), the 
Department of the Interior will pay up to $52 million into a trust fund 
established for the County.

    ``It is not often one can end a 67-year-old controversy with a 
stroke of a pen, but that is exactly what we are doing,'' Salazar said. 
``The Federal government is providing a fair settlement to the people 
of Swain County while ensuring the protection of Great Smoky Mountain 
National Park.''

    Salazar noted that the settlement is good for the people of Swain 
County because it generates much needed revenue; good for the 
department, because it protects the one of America's most treasured 
parks; and good for the American taxpayers, since building the road 
would have cost several times more than the settlement.

    National Park Service Director Jon Jarvis expressed strong support 
for the action that was accomplished without any impact on the Park 
Service's budget. Congressman Heath Shuler (D-NC) also commended the 
Obama administration for their leadership. ``This settlement will bring 
much-needed resources to Swain County for decades to come,'' said 
Shuler. ``The interest on these funds alone will greatly increase 
Swain's annual budget and will help the commissioners in their efforts 
to create jobs, invest in Swain County schools, and improve the 
county's infrastructure.''

    In 1943, the Department of the Interior, the State of North 
Carolina, Swain County North Carolina, and the TVA signed an agreement 
to provide for replacement of a 34-mile stretch of NC288 flooded during 
construction of the Fontana Dam and Reservoir. Completion of an 
alternate road was contingent upon Congressional funding.

    In the 1960s, the National Park Service constructed approximately 7 
miles of the road before abandoning the effort due to environmental 
impacts and engineering problems.

    Congress appropriated additional funds in 2001, triggering a 
National Environmental Policy Act analysis of several options including 
completion of the road or a monetary settlement. The Draft 
Environmental Impact Statement (DEIS), released in January 2006, stated 
that the Environmentally Preferred Alternative was to resolve the 1943 
Agreement through payment of a monetary settlement in lieu of any 
further construction. Over 76,000 comments were received on the DEIS 
with the vast majority received via emails and faxes generated by 
conservation groups opposed to the road. Public meetings to develop the 
Final Environmental Impact Statement (FEIS) began in February 2003. On 
October 2, 2007, the Park Service published the FEIS, which identified 
the monetary settlement as the preferred alternative. The Park Service 
issued a Record of Decision (ROD) on April 8, 2008, selecting the 
monetary settlement to Swain County as the National Park Service's 
Agency Preferred Alternative.

    Since the beginning of the EIS process two of the four parties to 
the 1943 Agreement--the Swain County Commission and the Governor of 
North Carolina--expressed support for a monetary settlement in lieu of 
the road. TVA agreed that the NPS identified the correct 
Environmentally Preferred Alternative but did not support any agency 
alternative.

(http://www.doi.gov/)

                                 ______
                                 

                        MEMORANDUM OF AGREEMENT
I. INTRODUCTION

    This agreement is made and entered into by and between TENNESSEE 
VALLEY AUTHORITY (``TVA''), a federal agency and corporation created by 
an act of Congress, the STATE OF NORTH CAROLINA (``North Carolina''), 
acting by and through its Governor, SWAIN COUNTY, NORTH CAROLINA 
(``Swain County''), a political subdivision of the State of North 
Carolina acting by and through the Board of Commissioners for the 
County of Swain; and the UNITED STATES DEPARTMENT OF THE INTERIOR 
(``DOI''), acting by and through the Secretary of the Interior 
(``Secretary'').

II. RECITALS

  A.   The parties entered into a prior agreement dated 30 July 1943 
            (the ``1943 Agreement'') concerning the construction of 
            Fontana Dam and related matters.
  B.   As set forth under the provisions of the 1943 Agreement, the TVA 
            acquired approximately 44,000 acres of land and transferred 
            the same to the Department of the Interior for inclusion in 
            the Great Smoky Mountains National Park and paid the State 
            of North Carolina, in trust for Swain County, $400,000.00 
            to be used for the payment of the principal on outstanding 
            county road bonds. Therefore, the parties recognize that 
            TVA has fulfilled all of its obligations under the 1943 
            Agreement and undertakes no further obligations herein.
  C.   North Carolina and Swain County have discharged their 
            obligations under the 1943 Agreement.
  D.   Swain County disputes whether the Department of the Interior has 
            performed its obligations under the 1943 Agreement relating 
            to the construction of the ``North Shore Road.''
  E.   Pursuant to the 1943 Agreement, the Department of the Interior 
            committed ``as soon as funds are made available for that 
            purpose by Congress'' to ``construct or cause to be 
            constructed'' a road, commonly referenced as the ``North 
            Shore Road,'' from the eastern boundary of the Great Smoky 
            Mountains National Park to a point on the Fontana Dam 
            Access Road.
  F.   Construction of the ``North Shore Road'' has not been completed.
  G.   Pursuant to the National Environmental Policy Act and other 
            laws, the National Park Service (NPS), a bureau of the 
            Department of the Interior, prepared an Environmental 
            Impact Statement (EIS) evaluating alternatives for the 
            North Shore Road with its stated purpose being to 
            ``discharge and satisfy any obligations on the part of the 
            United States that presently exist as the result of the 
            1943 Agreement.'' The EIS evaluated a range of alternatives 
            to fulfilling that purpose including renewing construction 
            of the North Shore Road and entering into a monetary 
            settlement of the 1943 Agreement with Swain County.
  H.   NPS approved a decision to ``implement the Monetary Settlement 
            Alternative'' and to ``convene a meeting of the 
            signatories'' to the 1943 Agreement on December 28, 2007.
  I.   Section 1007 of the ``Department of Defense Appropriations Act, 
            2010'' P.L. 111-118 (December 19, 2009), expressly 
            authorized the Secretary to make certain payments to Swain 
            County in connection with the non-construction of the North 
            Shore Road:

          (1)   Section 1007 authorized the Secretary to make a payment 
        of four million dollars ($4,000,000.00) to Swain County, North 
        Carolina upon the enactment of the Act;
          (2)   Section 1007 authorized the Secretary to make an 
        additional payment of eight million, eight hundred thousand 
        dollars ($8,800,000.00) to Swain County, North Carolina subject 
        to the Department of the Interior, Swain County, the State of 
        North Carolina, and TVA entering into an agreement that 
        supersedes the agreement of July 30, 1943. By the instant 
        agreement (``2010 Agreement'') the parties intend to settle any 
        and all claims under the 1943 Agreement, and to extinguish and 
        supersede the 1943 Agreement in its entirety.

III. TERMS AND CONDITIONS

    The parties hereby agree as follows:

  1.  The 1943 Agreement is hereby extinguished and superseded and 
            shall be of no further effect.
  2.  The United States Department of the Interior shall pay or cause 
            to be paid to or on behalf of Swain County (as hereinafter 
            provided) as follows:

          a.   Eight million, eight hundred thousand dollars 
        ($8,800,000.00) within ten (10) business days after the 
        ``Obligation Date'' which is one hundred twenty (120) calendar 
        days after the execution of the 2010 Agreement by the last 
        signatory hereto, as expressly authorized by Section 1007 of 
        the ``Department of Defense Appropriations Act, 2010'';
          b.   Such additional sums, not to exceed thirty-nine million, 
        two hundred thousand dollars ($39,200,000.00), as are hereafter 
        appropriated by Act of Congress for the express purpose of 
        effectuating the 2010 Agreement relating to the non-
        construction of the North Shore Road on or before December 31, 
        2020.

  3.  All payments to or on behalf of Swain County shall be held, 
            managed and disbursed by the Treasurer of the State of 
            North Carolina pursuant to the terms of Session Law 2008-13 
            enacted by the General Assembly of North Carolina and 
            signed into law on 25 June 2008.
  4.  The full payment of such sums as have been and are hereafter 
            appropriated by Act of Congress for the express purpose of 
            effectuating the 2010 Agreement relating to the non-
            construction of the North Shore Road, as referenced in 
            Paragraph 2, subject to the terms and conditions set forth 
            herein, shall constitute full and complete settlement of 
            all claims of Swain County, and all persons and entities 
            claiming by, through or under Swain County against the 
            United States of America, the Department of the Interior, 
            North Carolina or TVA arising out of the 2010 Agreement and 
            the 1943 Agreement. The parties agree that TVA has 
            fulfilled its obligations and therefore has settled and 
            disposed of all claims and demands which North Carolina and 
            Swain County may have against TVA by reason of the flooding 
            of North Carolina State Highway 288 and the construction, 
            operation, and maintenance of Fontana Dam and Reservoir.
  5.  This Agreement is enforceable only by the parties. This Agreement 
            is binding upon the parties, by and through their 
            officials, agents, employees, and successors. No person or 
            entity is intended to be a third party beneficiary of the 
            provisions of this Agreement for purposes of any civil, 
            criminal, or administrative action, and, accordingly, no 
            person or entity may assert any claim or right as a 
            beneficiary or protected class under this Agreement in any 
            civil, criminal, or administrative action.
  6.  This agreement may be executed in duplicate copies, each of which 
            shall be considered an original.

    IN WITNESS WHEREOF the parties hereto have caused this agreement to 
be executed by their proper representatives thereunto duly authorized 

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                

    Mr. Bishop. Thank you. I appreciate your testimony. Are 
there any questions for these two witnesses? Mr. LaMalfa, Mr. 
Grijalva?
    Mr. Grijalva. Nothing--not any questions in particular, 
just a--welcome, my friend, Mr. Shuler, and the sponsor of the 
legislation. It is something that, when you were here, we 
thought we took care of, and long overdue, and good to see you 
again.
    Mr. Bishop. OK. We thank you for your testimony. We are now 
going to invite some others to testify about this bill and the 
one Mr. Allard was talking about. You are invited to join us 
here and stay for questioning, if you would like to. I don't 
know what your schedule is. No one has ever taken me up on that 
option of actually staying here. I am getting used to being 
rejected. It is up to you. But notice that you are welcome to 
stay here. If you have other obligations, I recognize that, as 
well.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership. I actually have another hearing where I need to go 
to right now.
    Mr. Shuler. Thank you, Mr. Chairman.
    Mr. Bishop. Heard that one before.
    Let me invite then, with appreciations, let me invite back 
Mr. Carl Rountree from the National Landscape Conservation 
System, who will talk about H.R. 1776. Bruce Sheaffer, from the 
National Park Service, will talk about H.R. 3806, and Mr. 
Steve--is not here. OK. Who--I am sorry.
    Well, Mr. Koretoff, we will take your written testimony. 
Apparently you had plane problems and are not here right now.
    So, I will ask those two, if you will come back up, testify 
about these two bills. Let's start with H.R. 3806, if we could, 
and that is Mr. Sheaffer.
    Mr. Sheaffer. H.R. 3806, Great Smoky Mountain National Park 
Agreement Act, would provide the Park Service the authority to 
expend $4 million to make a payment to Swain County, North 
Carolina. This legislation is necessary, because the Park 
Service currently has no authority to make this payment, which 
stems from a 2010 Memorandum of Agreement with Swain County, 
the Department, and TVA.
    The 2010 agreement provided for monetary payments subject 
to appropriations to settle an issue dating back to 1943 
regarding the construction of a road along the North Shore in 
Fontana Lake, as former Congressman Shuler mentioned. Although 
the National Park Service had statutory authority to make 
previous payments to the county--that was the $12.8 million 
that they mentioned--there is no statutory authority to make 
the $4 million payment, what was requested in the 2012 
appropriations. This bill would provide the necessary 
authority.
    We support the passage of this bill.
    Mr. Bishop. Thank you. I appreciate that. Any questions for 
Mr. Sheaffer on this? Mr. LaMalfa, Mr. Grijalva?
    I have no questions on this particular legislation, either, 
which means if you would like to stay, you can. If you need 
to--everyone else is leaving, you might as well.
    Mr. Sheaffer. I would set a precedent if I stayed, I guess.
    [The prepared statement of Mr. Sheaffer on H.R. 3806 
follows:]
   Prepared Statement of Bruce Sheaffer, Comptroller, National Park 
         Service, U.S. Department of the Interior on H.R. 3806

 On H.R. 3806, ``Great Smoky Mountains National Park Agreement Act of 
                                 2013''
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
H.R. 3806, a bill to authorize payment of funds in accordance with the 
agreement entered into by the Tennessee Valley Authority, the State of 
North Carolina, Swain County, North Carolina, and the U.S. Department 
of the Interior.
    The Department supports H.R. 3806. This bill would provide the 
National Park Service the authority to expend $4 million appropriated 
to the National Park Service in the Consolidated Appropriations Act, 
2012 (Public Law 112-74) to make a payment to Swain County, North 
Carolina. This legislation is necessary because the National Park 
Service currently has no authority to make this payment, which stems 
from a 2010 commitment to the county.
    In February 2010, then-Secretary of the Interior Ken Salazar signed 
a Memorandum of Agreement with the Swain County, the State of North 
Carolina, and the Tennessee Valley Authority that provided for the 
Federal Government to make monetary payments not to exceed a total of 
$52 million, subject to appropriations, to Swain County to settle an 
issue dating to a 1943 agreement that provided that the Department 
would build a road along the North Shore of Fontana Lake in Great Smoky 
Mountains National Park. The 2010 Memorandum of Agreement provided for 
the monetary settlement in lieu of road construction as the rugged 
terrain, higher construction costs and severe environmental impacts 
make constructing the road an untenable option.
    In Fiscal Year 2010, two payments totaling $12.8 million were 
provided to Swain County. These funds were derived from prior-year 
appropriations, and directed to Swain County in the Department of 
Defense Appropriations Act of 2010 (P.L. 111-118), which included 
explicit authority for the Secretary of the Interior to make those 
payments to Swain County for non-construction of the road. After that 
amount was paid, up to $39.2 million of the $52 million stated in the 
Memorandum of Agreement remained.
    The Consolidated Appropriations Act, 2012 (P.L. 112-74) contained 
$4 million in the National Park Service construction account that 
potentially could have been used as payment for a portion of the 
remaining $39.2 million to Swain County, and in fact had been proposed 
for that purpose in the President's Fiscal Year 2012 budget. However, 
unlike the previous amounts appropriated, there was no statutory 
provision in P.L. 112-74 to spend the funds for Swain County, and there 
was no other statutory authority for that payment to be made. Enactment 
of H.R. 3806 would provide the authority that is needed for the 
National Park Service to use those previously appropriated funds to 
make the $4 million payment to the county.
    Mr. Chairman, this concludes my statement on H.R. 3806. I would be 
pleased to answer any questions you or any members of the subcommittee 
may have.

                                 ______
                                 

    Mr. Bishop. Thank you. All right, let me turn now to Mr. 
Rountree to talk about 1776 and other issues that may come up.
    You are recognized.

   STATEMENT OF CARL ROUNTREE, ASSISTANT DIRECTOR, NATIONAL 
   LANDSCAPE CONSERVATION SYSTEM AND COMMUNITY PARTNERSHIPS, 
   BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rountree. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, thank you for the opportunity to 
testify on H.R. 1776, the Clear Creek National Recreation Area 
and Conservation Act.
    H.R. 1776 would establish the Clear Creek National 
Recreation Area in San Benito and Fresno Counties in 
California, designate the Joaquin Rocks Wilderness on public 
lands near the proposed recreation area, and designate seven 
stream segments within BLM's Clear Creek Management Area as 
wild and scenic rivers.
    Lands within the Clear Creek Management Area present 
complex resource management and public health and safety 
issues. While we support the bill's proposed conservation 
designations, we cannot support provisions in the bill which 
would increase cancer risks to public land users and employees 
due to asbestos, a well-known carcinogen, within the Clear 
Creek Management Area's Serpentine Area of Critical 
Environmental Concern.
    The Clear Creek Management Area is located in one of the 
largest naturally occurring asbestos deposits in the world. And 
until 1979, asbestos was mined in parts of the management area 
at a facility that is now a superfund site. Since the 1970s, 
Federal and State health agencies have expressed concerns about 
how recreational use in the management area by hikers, campers, 
hunters, rock collectors, and off-highway vehicle users 
disturbs soils containing asbestos, and creates the potential 
for exposure and inhalation to airborne asbestos-based dust, 
increasing human health risks.
    Because of these concerns, a 30,000-acre Area of Critical 
Environment Concern of the Clear Creek Management Area has been 
designated as the Serpentine ACEC. In 2008, an EPA report 
concluded that asbestos exposure for many recreational 
activities in the ACEC may result in excess lifetime cancer 
risks. The study noted that children are at greater risk than 
adults, because they are exposed to these high levels of 
asbestos at an earlier age.
    The study also showed that visiting the management area 
more than one day per year can put adults and children above 
the EPA's acceptable risk range for exposure to carcinogens and 
increased excess lifetime cancer risk from many typical Clear 
Creek Management Area recreational activities, including off-
highway vehicle use and hiking.
    Due to the identified health risks, the BLM strictly limits 
access to the Serpentine ACEC under the agency's Clear Creek 
Resource Management Plan, which was finalized in February 2014. 
Under the management plan the BLM will re-assess recreation 
opportunities and travel management decisions if significant 
new information becomes available on human health risks from 
exposure to airborne asbestos fibers in the Clear Creek 
Management Area.
    In general, the Administration supports the promotion of 
responsible motorized and non-motorized recreation on public 
lands, including off-highway vehicle use in the Clear Creek 
Management Area. However, the National Recreation Area 
provisions are unclear as to whether the bill would result in 
increased motorized or other activities in the Serpentine ACEC 
and other parts of the Clear Creek Management Area. The BLM 
cannot support the provisions that could increase the risk of 
asbestos exposure to the public and its employees. And while 
the bill attempts to reduce BLM's liability for such exposure, 
the risk to the public health still remains.
    H.R. 1776 would designate the 20,500-acre Joaquin Rocks 
Wilderness, and would add seven stream segments, totaling just 
31 miles to the National Wild and Scenic Rivers system. The BLM 
supports these provisions.
    Thank you for the opportunity to present testimony for H.R. 
1776. I am happy to answer any questions you may have.
    [The prepared statement of Mr. Rountree follows:]
   Prepared Statement of Carl Rountree, Assistant Director, National 
Landscape Conservation System & Community Partnerships, Bureau of Land 
          Management, Department of the Interior on H.R. 1776
                              introduction
    Thank you for the opportunity to testify on behalf of the 
Department of the Interior (DOI) on H.R. 1776, which would establish 
the Clear Creek National Recreation Area in San Benito and Fresno 
Counties in California; designate the Joaquin Rocks Wilderness on 
public lands in San Benito and Fresno Counties; and designate seven 
stream segments within the Clear Creek Management Area (CCMA) as wild 
and scenic rivers. The BLM supports the conservation designations in 
the bill. While as written, the bill appears to expand recreational 
opportunities in the CCMA, the BLM has strong concerns regarding 
changes in management that could increase the exposure of public land 
users and employees to naturally occurring asbestos and expose the 
public to increased cancer risks described in an Environmental 
Protection Agency (EPA) study.
    As a general policy, the Administration supports the goals of 
promoting responsible motorized and non-motorized recreation, including 
off-highway vehicle (OHV) use, while also protecting public safety, 
conservation, and other important uses of public lands. However, the 
National Recreation Area provisions of the bill are unclear as to 
whether they would result in motorized or other activities in areas of 
the CCMA that are currently limited for health and safety reasons due 
to naturally occurring asbestos, a well-known carcinogen, in the area.
                               background
    The BLM manages approximately 63,000 acres of public lands in the 
75,000-acre CCMA in southern San Benito and western Fresno Counties, 
California. The CCMA offers a variety of settings and landforms that 
host many diverse natural and cultural resources, and offers recreation 
and other multiple-use opportunities, including grazing. The CCMA also 
contains a 30,000-acre area of serpentine rock containing naturally 
occurring asbestos. Until 1979, asbestos was mined in parts of the CCMA 
at the Atlas Asbestos Mine and mill, which is now a Superfund site.
    Since the 1970s, Federal and State health agencies have expressed 
concerns about how recreational use in the CCMA by hikers, campers, 
hunters, botanists, rock collectors, and OHV users disturbs soils 
containing asbestos and creates the potential for exposure to and 
inhalation of airborne asbestos-laced dust, increasing the risk to 
human health. As a result of this concern as well as the presence of 
the San Benito evening primrose (a special status plant species), the 
BLM has designated this 30,000-acre area within the CCMA as the 
Serpentine Area of Critical Environmental Concern (Serpentine ACEC). 
ACEC designations highlight areas where special management attention is 
needed to protect and prevent irreparable damage to important 
historical, cultural, and scenic values, fish, or wildlife resources or 
other natural systems or processes; or to protect human life and safety 
from natural hazards.
    Based on the concerns for the health of recreational visitors, the 
EPA initiated a risk assessment study in 2004 in connection with the 
clean-up of the Atlas Asbestos Mine Superfund Site, to evaluate 
visitors' exposure to airborne asbestos fibers in the CCMA. The EPA's 
Clear Creek Management Area Asbestos Exposure and Human Health Risk 
Assessment (completed in May 2008) concluded that asbestos exposure for 
many recreational activities in the ACEC may result in excess lifetime 
cancer risks. The study noted that children are at greater risk than 
adults because they are exposed to these high levels of asbestos at an 
earlier age. The study also showed that visiting the CCMA for a period 
of more than 1 day per year can put adults and children above the EPA's 
acceptable risk range for exposure to carcinogens and increase excess 
lifetime cancer risk from many typical CCMA recreational activities, 
including OHV use and hiking.
    As a result of the EPA study, the BLM implemented a temporary 
closure of the Serpentine ACEC in May 2008 to all forms of entry and 
public use in order to protect public health and safety. The BLM 
collaborated with the EPA, stakeholders, and the public to incorporate 
the EPA's health risk information into land-use decisions for the CCMA. 
Through an extensive planning process, with full opportunity for public 
comment, the BLM determined that limiting an individual's time spent in 
the Serpentine ACEC is the most effective way to mitigate the health 
risks from asbestos exposure. Thus, the BLM limits high-risk activities 
within the Serpentine ACEC through its Clear Creek Resource Management 
Plan (RMP), which was finalized in February 12, 2014. Under the 
management plan, the BLM allows for a range of recreational uses and 
other activities in portions of the CCMA. It also limits the types of 
uses and places time restrictions during which an activity can take 
place within the Serpentine ACEC to minimize asbestos-related risk to 
public health and safety. Specifically, the RMP strictly limits 
vehicular and pedestrian access to the Serpentine ACEC. The BLM will 
reassess recreation opportunities and travel management decisions if 
significant new information becomes available concerning human health 
risks from exposure to airborne asbestos fibers in the CCMA.
                               h.r. 1776
    As noted earlier, H.R. 1776 would establish the Clear Creek 
National Recreation Area in San Benito and Fresno Counties; designate 
public lands in San Benito and Fresno Counties as the Joaquin Rocks 
Wilderness in those counties; and designate segments of five creeks 
within the CCMA as wild and scenic rivers.
Clear Creek National Recreation Area
    Section 3 of H.R. 1776 establishes the Clear Creek National 
Recreation Area, to be managed by the Secretary of the Interior, to 
promote motorized and non-motorized recreation, including OHV use, 
scenic touring, hunting and gem collecting. Under the bill, the 
Secretary would open the CCMA to the uses identified in the bill 
including motorized recreation, mountain biking, hiking, hunting and 
camping. The bill provides direction for developing a comprehensive 
management plan that would provide for these activities.
    As written, it is unclear whether the bill's provisions would 
result in increased activities in the Serpentine ACEC of the CCMA that 
are currently limited for health and safety reasons due to the risks 
from the carcinogen asbestos in the area. Public and employee health 
and safety has guided the BLM's approach in managing the area, and the 
agency opposes provisions that could increase the risk of exposure to 
asbestos and pose significant potential risks to the public and 
employees.
    While section 4 of H.R. 1776 provides the BLM an exemption from 
responsibility for the public's exposure to asbestos while recreating 
at the CCMA pursuant to section 105 of the Comprehensive Environmental 
Response, Compensation and Liability Act (CERCLA) of 1980 (42 U.S.C. 
9605), the bill does not reduce risk to the public; it only attempts to 
reduce liability to the BLM. As determined by the EPA, the potential 
public health risks are high in the Serpentine ACEC of the CCMA. In 
addition, the BLM is required to meet Occupational Safety and Health 
Administration standards for employees working in a designated 
hazardous asbestos area within the Serpentine ACEC, as well as meet 
Federal, State, and local air and water quality regulations designed to 
protect public health and safety from uncontrolled releases of 
hazardous airborne pollutants.
Joaquin Rocks Wilderness Area
    Section 5 of H.R. 1776 proposes to designate 20,500 acres of public 
land in Fresno and San Benito Counties as the Joaquin Rocks Wilderness. 
The core of this area--more than 7,000 acres--has already been 
designated for special protection by the BLM as an ACEC. The 
centerpiece of the proposed wilderness area is the three large 
sandstone monoliths, known locally as Las Tres Piedras, which tower 
4,000 feet above the southern San Joaquin Valley. The rocks are home to 
a number of raptors, including the prairie falcon and the majestic 
California condor. Vernal Pools at the top of the rocks provide 
important seasonal habitat, and are also an important water source for 
wildlife in this arid region. Rock art sites throughout the proposed 
wilderness attest to earlier occupation and may even include ancient 
astronomical references. The BLM supports the wilderness designation in 
H.R. 1776, and would like the opportunity to work with the sponsor on 
minor boundary modifications and mapping issues.
Wild & Scenic River Designations
    Section 6 of H.R. 1776 proposes to add seven stream segments 
totaling just over 31 miles to the National Wild and Scenic River 
System within Fresno and San Benito Counties. All seven rivers find 
their origin in the Mountains of Southern San Benito County in the 
Diablo Range and each represent distinct watersheds. The segments are 
all free flowing and contain outstandingly remarkable values as 
required by the National Wild and Scenic Rivers Act. The BLM supports 
these designations and would like to work with the sponsor to identify 
the most suitable classification for each of the seven segments.
                               conclusion
    The BLM appreciates the work by Congressman Farr on H.R. 1776. 
Lands in the CCMA present complex resource management and public health 
and safety issues. While we support the proposed conservation 
designations, we cannot support provisions in the bill that could 
increase the exposure of public land users and employees to naturally 
occurring asbestos. We would like to continue working with Congressman 
Farr and the committee to address future uses at the CCMA, including 
the growing and popular activity of responsible OHV use in California 
and across the West.
    Thank you for the opportunity to testify. I would be glad to answer 
any questions.

                                 ______
                                 

    Mr. Bishop. OK. Are there questions for Mr. Rountree? Mr. 
LaMalfa, do you have questions on this particular one? Mr. 
Grijalva?
    Mr. Grijalva. Yes. Mr. Rountree, did the revised resource 
management plan which was recently finalized adequately include 
the input of OHV users? And have any of these OHV users come 
forward to say they have concerns about the asbestos which you 
just outlined?
    Mr. Rountree. Thank you, sir. I can't respond to your last 
question. Don't know whether or not they have, with respect to 
the risk posed by asbestos.
    I will say that the resource management plan that was 
developed for the Clear Creek Management Area was done with a 
very extensive public involvement effort, including not only 
OHV enthusiasts, but other recreationists in the area. Also, in 
very close coordination with other Federal and State agencies, 
including both the OHV division and commission, as well as the 
California State Parks and Recreation Department.
    Mr. Grijalva. How common is it for BLM to collaborate with 
EPA on land use decisions out West?
    Mr. Rountree. We will use the best available information 
for developing any kind of resource management plan for 
developing plans of action to govern our multiple use on public 
lands. EPA, we felt, was the most viable source. They spent 4 
years studying this when they were examining the asbestos mine. 
And based on our conversations with them and others within 
State agencies, feel it is a very viable source of information 
for us to use in making these decisions.
    Mr. Grijalva. We have had testimony that the findings are 
overblown, inconclusive, and, therefore--and are such low 
levels that it poses no risk to public health. EPA finds it 
differently. Your recommendation and your testimony finds it 
differently. I think that is a central question to this piece 
of legislation, and would ask that any additional information 
that might not be part of the record of your testimony 
regarding that specific issue be forwarded to the committee.
    Mr. Rountree. Absolutely. We will be happy to.
    Mr. Grijalva. Thank you.
    Mr. Bishop. Thank you. I have a couple of questions. Also, 
we have just heard that one of the witnesses who was not here--
his plane has arrived, he is in the building somewhere, and if 
Mr. Koretoff arrives we are going to ask him to come and 
actually give his testimony, as well.
    Mr. Garcia, do you have any questions on this one?
    Mr. Rountree, let me ask a couple of questions. Who did the 
study on the asbestos for you all?
    Mr. Rountree. It was the Environmental Protection Agency.
    Mr. Bishop. EPA. Do you have specific reference to the 
testimony that was given by Senator Allard that says that that 
study was exaggerated?
    Mr. Rountree. Yes, sir.
    Mr. Bishop. Have you seen Mr. Allard's study?
    Mr. Rountree. No, sir, I have not.
    Mr. Bishop. Do you have any comment about it?
    Mr. Rountree. Yes, sir. The IEFR report, as it is 
referred--I believe that is the report he may be citing in his 
testimony--was something that was considered by the Bureau of 
Land Management. In fact, the Bureau of Land Management, 
working with the California Parks and Recreation Division, as 
well as the OHV Department and the OHV Commission, discussed 
aspects of both the IEFR report, as well as the EPA report, and 
they found that, in terms of the values, the fact that 
Serpentine is found in this area, the fact that asbestos is 
born in Serpentine, the reports are very similar. Where they 
differed were with respect to the risks.
    Mr. Bishop. So BLM did do some study about this, but you 
rejected those recognitions of what the risk value is?
    Mr. Rountree. We deferred to EPA.
    Mr. Bishop. That is sad. Look, I understand what asbestos 
means. I taught school for 30 years across from the boy's 
restroom. I understand what it means to be close to it, and how 
you can cover for that.
    I have one request, though, is that would you--obviously, 
the agency--please provide for the committee a map that shows 
where all the current OHV recreation roads and trails are 
located within this management area?
    Mr. Rountree. Absolutely.
    Mr. Bishop. When can we get that?
    Mr. Rountree. We will do that within the next week, Mr. 
Chairman.
    Mr. Bishop. Thank you. Because that has not been provided. 
We haven't had a chance to look at that.
    Mr. Rountree, it has been a while since you had joined us. 
I do have a question that, obviously--several years ago there 
was a treasured landscape proposal that went out as people were 
just thinking off the top of their heads. Unfortunately, 
tomorrow, it seems like one of those thoughts that was just off 
the top of their heads will come into fruition--at least 
according to the press reports. Talking about Organ Mountain.
    Press stories indicate that the claims were made by the 
sponsors in the Senate, that they could somehow increase border 
security. There are WSAs that are down there that currently 
prohibit that kind of activity. Do you have some way to release 
the WSAs administratively in that area so the border can be 
better patrolled?
    Mr. Rountree. No, sir, we do not. But it will take an Act 
of Congress to do so.
    Mr. Bishop. So the press indications that claim that this 
announcement will increase that security, there is no way of 
actually implementing that?
    Mr. Rountree. I haven't read the proclamation, sir, so not 
sure exactly what they are saying.
    I will say we found that in Arizona, where we do have a 
number of national conservation lands, that the efforts along 
the border have actually been enhanced because of the attention 
that has been focused in these areas. And the close working 
relationship that we have developed with Border Patrol, in 
terms of managing these areas for illegal immigration.
    Mr. Bishop. Has that improved since the CBO report came 
out?
    Mr. Rountree. I am not sure what the CBO report is. I am 
sorry.
    Mr. Bishop. We will come back to that, then.
    Can you tell me the timeline on the activities leading to 
the pending Organ monument announcement? When did BLM start 
working on this potential designation?
    Mr. Rountree. BLM has not been working on a potential 
designation.
    Mr. Bishop. Even though it was part of the treasured 
landscapes proposal several years ago?
    Mr. Rountree. That is correct.
    Mr. Bishop. So you have done nothing specifically with the 
Administration on this?
    Mr. Rountree. No, sir.
    Mr. Bishop. Do you know of any special interest groups that 
have?
    Mr. Rountree. I don't know of any special interest groups. 
I will say that there have been people that have met with the 
Bureau of Land Management to express their concerns, also to 
express their support for this and other areas.
    Mr. Bishop. Was the congressman who represents this area 
and has introduced legislation to conserve the area kept 
informed on each of the steps along the way?
    Mr. Rountree. No, sir, not that I am aware.
    Mr. Bishop. So, if you haven't been consulted on the 
designation, how can the Administration be sure that all the 
issues that deal with 500,000 acres of BLM land have been 
reviewed and concerned, especially because the sponsors had 
specific provisions in there dealing with WSAs. They are 
obviously not going to be part of the announcement. They don't 
have the power to change that, administratively. How are those 
issues being addressed?
    Mr. Rountree. We have not seen a proclamation, Mr. 
Chairman. We will certainly work with the President once we 
have had a chance to review the proclamation, to work out 
whatever steps are necessary to----
    Mr. Bishop. With what authority?
    Mr. Rountree. The proclamation.
    Mr. Bishop. How can you work with the President to deal 
with things that can't be done without congressional 
authorization?
    Mr. Rountree. Well, we will do everything we can within our 
power, working within the wilderness study areas, to assure 
that we provide whatever resources we can to make that happen.
    Mr. Bishop. Wouldn't that have been better to be done in a 
public process, before the announcement is made, rather than a 
post-process?
    Mr. Rountree. Well, I can't second-guess the President, Mr. 
Chairman.
    Mr. Bishop. Why not? Everyone else does.
    [Laughter.]
    Mr. Bishop. But, actually, you are not second-guessing it, 
because the Interior Department already came out with this 
brainstorming idea when you did the treasured landscapes.
    So, you are telling me after the brainstorming went through 
nothing else was done to consider all these potential issues?
    Mr. Rountree. No, sir.
    Mr. Bishop. The Senate actually introduced a bill that 
contained probably areas that could be worked on to improve the 
process, to improve the safety on the border, and yet none of 
those are being considered, and the President hasn't gone 
through that, he hasn't talked to you, he hasn't talked to 
anyone else about it, he hasn't talked to the Representative 
who represents this particular area. We are just going to do 
it?
    Mr. Rountree. Has not talked to us. No, sir.
    Mr. Bishop. Maybe that is one of the reasons why we said 
there should be a change in process, so that these issues 
should be discussed ahead of time, not post-that time.
    Have you had the opportunity of being with us since the 
last--I remember the last time we were here we asked you some 
questions about the wild land legislation. Have you been here 
since that time?
    Mr. Rountree. I have not.
    Mr. Bishop. OK. Mr. Grijalva, do you have any other 
questions you want of this witness?
    Mr. Grijalva. No.
    Mr. Bishop. Come on. I gave you an opening.
    [Laughter.]
    Mr. Grijalva. No.
    Mr. Bishop. It is--no, I didn't mean to push you into it, 
it is OK.
    Mr. Grijalva. No, I just want to thank him for his----
    Mr. Bishop. Appreciate you being here. We appreciate all--
now, do we know where--all right. What we will do--and I hate 
to do this when somebody has traveled this way to give us 
testimony, and not being able to do that, but, Mr. LaMalfa, 
maybe you can help me out of this awkward situation.
    Mr. LaMalfa. Well, I was kind of curious about this 
naturally occurring asbestos phenomenon. How much bearing does 
this have on not just this, but other land use decisions in 
other areas around--whether it is BLM or other Federal lands, 
what have you? Because I am curious. How much does this curtail 
activity, whether it is recreational, like we are talking about 
here, or other industry resource activities that would be going 
on?
    Because, you know, again, it is a naturally occurring 
substance. And so how much of this goes on?
    Mr. Rountree. Well, in this particular situation or across 
all public lands? Is your question about this specific----
    Mr. LaMalfa. Well, how much prohibition is there for the 
use of other public lands because of this? Is this a new thing, 
or is this----
    Mr. Rountree. This is a very unique occurrence. I think it 
is the largest serpentine deposit in the world, if I am not 
mistaken. So it is very rare. We have actually designated an 
Area of Critical Environmental Concern, which we do in our 
resource management planning, usually to protect cultural or 
native plant species and animal habitat. But we also do it in 
order to protect public health. And this is one of the few 
instances where we have done that.
    Mr. LaMalfa. So is there a parts per million figure that 
this has to rise to? Or what is the criteria in establishing--
--
    Mr. Rountree. I would have to defer to EPA, but would be 
happy to give you that information, if you would like.
    Mr. LaMalfa. Do you have it, then, or----
    Mr. Rountree. I do not. No, sir. But we can get it for you.
    Mr. LaMalfa. EPA has these numbers.
    Mr. Rountree. Yes, sir.
    Mr. LaMalfa. And how much time have they spent studying 
this zone, or others like it?
    Mr. Rountree. They studied this one for about 4 years. They 
started their efforts in 2004, and they completed it in 2008.
    Mr. LaMalfa. What prompted the study?
    Mr. Rountree. The Atlas Mine site that was located within 
the Serpentine ACEC.
    Mr. LaMalfa. How far away is it from the site we are 
talking about?
    Mr. Rountree. It is on the site.
    Mr. LaMalfa. I mean as far as recreation activity would be 
going on.
    Mr. Rountree. Probably in and around the same area.
    Mr. LaMalfa. OK. All right. Thank you, Mr. Chairman. I 
yield back.
    Mr. Bishop. Thank you. I appreciate that. And we stretched 
this long enough.
    Mr. Koretoff--is that pronounced properly?
    Mr. Koretoff. Yes, sir. Thank you.
    Mr. Bishop. I appreciate you coming from California. The 
Ranking Member will understand. I understand you got held up in 
Dallas?
    Mr. Grijalva. Yes, that was----
    Mr. Koretoff. Unfortunately, yes.
    Mr. Bishop. I think the Ranking Member was with you in 
Dallas, trying to get in here.
    So, we apologize. I appreciate your patience and effort to 
actually make it here. You are the last witness we have. We are 
ready to have your testimony on H.R. 1776, please.
    Mr. Koretoff. Yes. I am going to go ahead and read from my 
written testimony.
    Mr. Bishop. Is your microphone on?
    Mr. Koretoff. Yes, sorry.
    Mr. Bishop. Yes, just pull it close to you.
    Mr. Koretoff. Us farm folks are used to yelling over the 
tractor.

STATEMENT OF STEVE KORETOFF, CALIFORNIA TRAIL USERS ASSOCIATION

    Mr. Koretoff. So, anyway, Mr. Chairman and members of the 
committee, I appreciate the opportunity to appear before you 
today to share my views, the views of the Friends of Clear 
Creek Management Area, and the views of other multiple-use 
interests about this bipartisan land use legislation. My name 
is Steve Koretoff, I am a native of Fresno County, located in 
the heart of the Central Valley. My family has been farming in 
this area going on five generations. I am the general manager 
for the family's organic almond packing facility. I currently 
reside in Fresno, California. I am a recreation and public land 
advocate who has championed responsible access to public lands 
for the last 10 years.
    I served on the BLM Central California Resource Advisory 
Council, which brings diverse interest groups together to offer 
land management advice to BLM. In addition, I have served as 
the Chairman of the OHV Subcommittee to the RAC, and I am 
currently still the chairman. There is a little typo there. It 
says 2009 to 2013, and that is incorrect. It was 2006 to 2013. 
I have served out a significant portion of one of my 
colleague's terms, and then two terms on top of that of my own.
    So, I will proceed. Mr. Chairman, before getting into the 
substance of my concerns, I want to give the committee a quick 
overview of CCMA. In 2002, Dirt Rider Magazine listed Clear 
Creek as one of the top 10 OHV recreation sites in the country. 
It is located mostly in the southern San Benito County, and in 
the Coastal Mountain Range that separates the Salinas Valley 
from the Central Valley.
    As this committee knows, the BLM functionally closed this 
75,000-acre unit to all user groups in May 2008. Before the 
emergency closure, the unit was open for OHV use on 
approximately 242 miles of designated routes from October 16 to 
May 31. This unit also contains approximately 25 miles of 
county roads.
    I have operated OHVs with family and friends, and club 
members in CCMA since the early 1990s. Many of our family and 
friends have been recreating in and around CCMA for over three 
generations. I consider many BLM employees on various units to 
be both personal friends and professional colleagues.
    I, and others in the OHV community, additional 
stakeholders, and the San Benito County found ourselves in 
strong disagreement with the Hollister Field Office's initial 
decision to issue an emergency closure order in May 2008. I was 
actually notified of this on--leaving Washington, DC. I was 
here for some Ag-related business and kind of had a bomb 
dropped on me. I got a phone call from the Hollister Field 
Office and I was really surprised.
    So I will continue. Issued an emergency closure order in 
May 2008 and its recent 2014 Record of Decision, which 
basically codifies that initial order and renders the unit 
functionally closed to OHV recreation.
    I believe H.R. 1776 strikes the right balance between 
access and safety by relying on proven management as signs and 
public outreach currently being used by sister land management 
agencies to caution the recreation public about the life-
threatening hazards of rock climbing, snow skiing, swimming, 
and boating.
    Between 1981 and 2007, OHV recreationists through the 
California off-highway motor vehicle recreation grants program 
contributed approximately $7 million dollars to CCMA for trail 
and facility construction, route maintenance, resource 
protection, and law enforcement. No doubt, during that time 
period, millions of dollars of appropriated funds has also been 
spent to manage multiple-use recreation on that unit.
    I believe H.R. 1776 recognizes the investment of taxpayer 
dollars and users fees restoring OHV recreation on the unit 
using the NEPA-approved 2005 Clear Creek Management Area Travel 
Management Plan. I believe that H.R. 1776 recognizes that CCMA 
should be open for public use.
    I urge Congress to support this bipartisan legislation that 
designates 70,000-acre CCMA as a national recreation area with 
OHV recreation and other multiple-use recreation activities 
codified and protected in statute, including the 242 miles of 
routes and 400 acres of open areas identified for motorized use 
in the 2005 CCMA Travel Management Plan.
    On behalf of myself, the OHV community, and other access 
stakeholders, I thank the subcommittee for allowing me to 
testify on H.R. 1776. At this time, I would be happy to answer 
any questions.
    [The prepared statement of Mr. Koretoff follows:]
     Prepared Statement of Steve Koretoff, California Trail Users 
                              Association
Statement in support of legislation to designate certain lands in 
        Central California as the Clear Creek National Recreation Area 
        (H.R. 1776)
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you today to share my views, the views of 
the Friends of the Clear Creek Management Area, and views of other 
multiple-use interests about this bipartisan land use legislation.
    My name is Steve Koretoff. I am a native of Fresno County, located 
in the heart of the Central Valley of California. My family has been 
farming in this area going on five generations. I am the general 
manager for the family's organic almond packing facility. I currently 
reside with my family in Fresno, California. I am a recreation and 
public land advocate who has championed responsible access to public 
lands for the last 10 years.
    I served on the BLM's Central California Resource Advisory County 
(2009-2013) which brings diverse interest groups together to offer land 
management advice to the BLM. In addition, I have served as Chairman of 
the OHV Sub-committee to the RAC.
    Mr. Chairman, before getting into the substance of my concerns, I 
want to give the committee a quick overview of CCMA. In 2002, Dirt 
Rider Magazine listed Clear Creek as one of the top 10 OHV recreation 
sites in the country. It is located mostly in southern San Benito 
County in the Coastal Mountain Range that separates the Salinas Valley 
from the Central Valley. As this committee knows, the BLM functionally 
closed this 75,000 acre unit to all user groups in May 2008. Before the 
emergency closure, the unit was open for OHV use on approximately 242 
miles of designated routes from October 16 to May 31. This unit also 
contains approximately 25 miles of county roads.
    I have operated OHVs with family, friends, and club members in CCMA 
since the early 1990s. Many of our family and friends have been 
recreating in and around CCMA for three generations. I consider many 
BLM employees on various units to be both personal friends and 
professional colleagues.
    I and others in the OHV community, additional stakeholders, and San 
Benito County found ourselves in strong disagreement with the Hollister 
Field Office's initial decision to issue an emergency closure order in 
May 2008 and its recent 2014 Record of Decision which basically 
codifies that initial order and renders the unit functionally closed to 
OHV recreation.
    I believe H.R. 1776 strikes the right balance between access and 
safety by relying on proven management as signs and public outreach 
currently being used by sister land management agencies to caution the 
recreation public about the life threatening hazards of rock climbing, 
snow skiing, swimming, and boating.
    Between 1981 and 2007, OHV recreationists through the California 
OHMVR grants program contributed approximately $7 million dollars to 
CCMA for trail and facility construction, route maintenance, resource 
protection, and law enforcement. No doubt during that time period, 
millions of dollars of appropriated funds has also been spent to manage 
multiple-use recreation on that unit.
    I believe H.R. 1776 recognizes that investment of taxpayer dollars 
and user fees by restoring OHV recreation on the unit using the NEPA 
approved 2005 CCMA Travel Management Plan.
    I believe that H.R. 1776 recognizes that that CCMA should be open 
for public use.
    I urge Congress to support this bipartisan legislation that 
designates the 70,000-acre CCMA as a National Recreation Area with OHV 
recreation and other multiple-use recreational activities codified and 
protected in statute including the 242 miles of routes and 400 acres of 
open areas identified for motorized use in the 2005 CCMA Travel 
Management Plan.
    On behalf of myself, the OHV community, and other access 
stakeholders, I thank the subcommittee for allowing me to testify on 
H.R. 1776.
    At this time, I would be happy to answer any questions.

                                 ______
                                 

    Mr. Bishop. Thank you. Mr. LaMalfa, do you have any 
questions for this witness?
    Mr. LaMalfa. Yes, thank you. Well, we all know what a 
struggle it is to have off-road lands available to people in 
the hobby, in the sport. And so I am sure you run into a lot of 
that frustration, yes?
    Mr. Koretoff. Yes.
    Mr. LaMalfa. Yes. Money that is promised to go toward that 
ends up going to something else.
    Mr. Koretoff. Yes.
    Mr. LaMalfa. Goes to environmental concerns, or this or 
that. A lot of that we see, right?
    Mr. Koretoff. Yes.
    Mr. LaMalfa. So, with this proposal here, for this 
particular area, you are hearing about how asbestos is going to 
harm everybody that uses that. I mean how do we deal with that?
    And, by the way, I am on your side, conceptually, on this 
thing. But, you know, you are going to hear about how asbestos 
fibers are going to harm everyone. And so how do we answer that 
from your community side of it?
    Mr. Koretoff. We find it quite interesting that BLM is 
using OSHA standards for the employees. However, they are using 
a much more stringent EPA standard for the public, which is 
quite unusual. Normally, OSHA standard would be much----
    Mr. LaMalfa. So an OSHA standard might be used for somebody 
that is working there every day, 8 hours a day, 10 hours a day, 
whatever, with forestry or mining or whatever industry they 
might be in. Someone who is there all the time, versus somebody 
who is there occasionally, recreating on a dirt bike or what 
have you for a few hours on a weekend, three or four weekends a 
year. Is that kind of what you are paralleling there, sir?
    Mr. Koretoff. Yes, I am paralleling the lack of exposure 
time by the recreational community, but also it seems that the 
public standard, or the risk analysis, is the public is being 
held to a much higher level. So, therefore, what EPA is stating 
is that the public, for whatever reason, cannot be exposed to 
the naturally--occurrences of asbestos minerals as the 
employees. And I find that a little perplexing.
    I have done a considerable amount of research over the last 
8 years. And the methodology that is used to determine the risk 
is considered very controversial. I can supply you gentlemen 
with some scientific analysis that states that EPA is over-
estimating the risk by a substantial amount. And not only does 
it say that, but it states scientifically why they feel that 
way.
    So, one of the issues that the public had--and primarily 
the off-road community--was asking where is the physical 
evidence to back up the EPA risk analysis. And there is none.
    Mr. LaMalfa. OK. Thank you. I am sorry about the 
interruption there as we were----
    Mr. Koretoff. No, I understand. I came late----
    Mr. LaMalfa [presiding]. Chairman Bishop did have another 
hearing, and so I had to take over for a moment. I will follow 
up here in a minute, but I would offer to Mr. Grijalva if you 
have any questions, sir.
    Mr. Grijalva. Thank you, Mr. Chairman. No question for the 
witness that just provided the testimony. Thank you very much 
for making it, despite the wonderful stay in Dallas. Should 
compare notes.
    Mr. Koretoff. Dallas is a wonderful place, by the way, I 
just didn't want to get stuck there when I needed to be here.
    Mr. Grijalva. Well, I----
    Mr. Koretoff. So no disrespect to the people of Texas or 
Dallas.
    Mr. Grijalva. I won't go as far.
    [Laughter.]
    Mr. Grijalva. But anyway, I was going to--Mr. Rountree, to 
your knowledge, has this committee moved either the Senate or 
House proposal related to designating areas around Organ 
Mountain as a national monument?
    Mr. Rountree. I am sorry. I didn't understand your 
question, Mr. Grijalva.
    Mr. Grijalva. There are proposals in the Senate and the 
House to designate areas around Organ Mountain as a monument, a 
legislative--have you seen----
    Mr. Rountree. The only thing I have seen has been the 
legislation that was introduced and that I testified on when I 
was before this committee last year.
    Mr. Grijalva. Great. Do you--does the BLM have any 
authority to make a monument designation?
    Mr. Rountree. No, sir. Only Congress or the President.
    Mr. Grijalva. Do you believe that the White House 
coordinated with the Department of the Interior to gather 
information related to this monument designation?
    Mr. Rountree. I would have to defer to the White House, Mr. 
Grijalva.
    Mr. Grijalva. Thank you. With that, I have no further 
questions. And thank you.
    Mr. LaMalfa. OK. Thank you again. So I say it properly, is 
it Koretoff?
    Mr. Koretoff. Yes.
    Mr. LaMalfa. Koretoff. OK, thank you. Mr. Koretoff, do you 
feel that the OHV user comments were adequately considered in a 
decision like this?
    Mr. Koretoff. No.
    Mr. LaMalfa. How long have you been recreating there 
yourself, have you and your family?
    Mr. Koretoff. I started recreating there in 1992.
    Mr. LaMalfa. 1992. How do you feel?
    Mr. Koretoff. I feel pretty good.
    Mr. LaMalfa. OK.
    Mr. Koretoff. Actually, I am a little bit depressed, 
because I can't ride on my favorite riding----
    Mr. LaMalfa. Yes, yes, OK. Well, all right. Yearning to 
breathe free there.
    So, to follow up on the previous thoughts--in your review, 
you think there is a double standard between EPA using one 
standard for off-roaders and OSHA has another for, say, 
professional industrial activity there. Right?
    Mr. Koretoff. Yes. It is a little bit confusing that BLM, 
for the Hollister Field Office staff, is using the OSHA 
guidelines. However, when it comes to the public, it is the EPA 
guidelines that are being used. So you don't have similarities 
in that.
    One of the risk assessments is holding the public to a much 
higher standard and it is a much lower threshold.
    Mr. LaMalfa. OK. Well, Mr. Rountree promised he would 
supply us some of the EPA information for me and maybe other 
members of the committee on how they got there. Do you think 
that will shed much light on why there are two different 
standards, Mr. Rountree?
    Mr. Rountree. I don't know, sir. I will say that if the 
committee is interested, we have very, very stringent standard 
operating procedures for our employees out on the Serpentine 
ACEC, and I would be happy to provide those to the committee to 
give them a little better understanding of the efforts we take 
to ensure the safety of our employees.
    Mr. LaMalfa. Again, how many other areas do you know of 
around--do you know of other areas around the country where a 
naturally occurring asbestos phenomenon is causing people to 
not have access to lands?
    Mr. Rountree. No, sir, not to my knowledge.
    Mr. LaMalfa. This is it.
    Mr. Rountree. This is it, mm-hmm.
    Mr. LaMalfa. Do you see----
    Mr. Rountree. As far as the serpentine asbestos issue is 
concerned.
    Mr. LaMalfa [continuing]. Do you see more on the horizon?
    Mr. Rountree. I----
    Mr. LaMalfa. Is EPA studying more of this, or your 
Department studying more of this?
    Mr. Rountree. I have no idea. I would have to defer to EPA 
on that.
    Mr. LaMalfa. OK. Would you get that in the information you 
are going to supply the committee, too, please?
    Mr. Rountree. Absolutely.
    Mr. LaMalfa. OK. Well, sir, you came, again, a long way. 
You got held up in Dallas. I thought that just happened 150 
years ago, but--would you have any more you would like to close 
with, since you did make the travel and the time here, on any 
area of this topic? I would like to offer that to you.
    Mr. Koretoff. Yes. If I may just very briefly, I appreciate 
the ability that I have had to work with the Hollister Field 
Office and the State office. I have also been very appreciative 
of the former directors in the past that have always been 
willing to meet with me when I come to Washington, DC. I was 
hoping that that would continue with the current director. But, 
unfortunately, I was unable to get him to respond to my emails 
or my phone calls.
    In closing, what I would like to say is that San Benito 
County, which is the home of one of the largest asbestos mines 
in the western United States, just happens to have the third-
lowest occurrence of asbestos-related disease in the whole 
State of California. This is why my colleagues and myself are a 
little bit perplexed. We see that there are scientific experts 
that disagree with the EPA analysis. There is a lack of 
physical evidence. And our question is why.
    So, in closing, we would like a few more answers on that. 
But, at the same time, I would also like to convey my interest 
in continuing to work with the agency in some way or shape or 
form, finding some way to move forward. It is my hope that the 
legislation will pass. But, at the same time, we want to 
continue having a good working relationship with the agency. 
And I would like to convey that to Mr. Rountree at this time.
    And we, in the meantime, while we are waiting for that, it 
was voted unanimously by the Resource Advisory Council to BLM 
that areas outside of the ACEC, which is the Area of Critical 
Environmental Concern, which are not under the closure be made 
available to motorized recreation.
    And a final comment is the Atlas superfund, that area is in 
a remote part of Clear Creek Management Area, and is completely 
fenced and closed. There is no access into the former mine 
area. I really thank you for this time and this opportunity to 
be here. It is truly an honor, and it has been a humbling 
experience. And I thank you.
    Mr. LaMalfa. You are welcome. Mr. Grijalva?
    Mr. Grijalva. No, I will just put it in writing. Thank you, 
Mr. Chairman.
    Mr. LaMalfa. OK. All right. Thank you again for your 
travel, Mr. Rountree. We look for those answers from EPA and 
others related to that.
    And, Mr. Koretoff, if you would like to submit to the 
committee some of your frustration with not getting your 
questions or your emails--response from agencies on that, 
direct them to us, please, to be able to look over and perhaps 
help you with that. OK?
    Mr. Koretoff. Yes.
    Mr. LaMalfa. All right----
    Mr. Koretoff. Would it be acceptable for me to forward some 
of the scientific opinions and things that I have that I have 
based my opinion on?
    Mr. LaMalfa. Of course. Please do.
    Mr. Koretoff. OK, thank you.
    Mr. LaMalfa. OK. All right. With that, Members, we--no 
further questions or even committee members, thank you, the 
witnesses, again, for your travel. And I will ask that they 
respond in writing to all the questions submitted by 
subcommittee. There being no further business, without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 11:00 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of Hon. Sam Farr, a Representative in Congress from 
                        the State of California
          H.R. 1776, the Clear Creek National Recreation Area
                          and Conservation Act
    Mr. Chairman, members of the subcommittee, thank you for this 
opportunity to speak to you about H.R. 1776, the Clear Creek National 
Recreation Area and Conservation Act. I also want to thank our 
colleagues Mr. Valadao and Mr. Denham for joining me as original 
cosponsors of this legislation, as well as, Mr. McClintock as a 
cosponsor. This bill truly represents a bipartisan collaboration and I 
am proud to have them join me in working to advance this modest bill.
    H.R. 1776 protects and enhances in three ways the public's access 
to and enjoyment of some of the unique public lands managed by the 
Bureau of Land Management (BLM) in central California. First, the bill 
re-designates the Clear Creek Management Area (CCMA) as the Clear Creek 
National Recreation Area (CCNRA) and reopens it to off road vehicle 
(OHV) recreation. Second, the bill designates the adjacent Joaquin 
Rocks landscape as wilderness and finally designates five BLM 
identified streams in the area as National Wild & Scenic Rivers.
    These actions together encapsulate the efforts of both the OHV 
community and California's wilderness advocates and ensures that this 
legislation has a broad base of support from the community and local 
electeds. I would now like to take the opportunity to describe these 
three facets of the bill in more detail.
                              clear creek
    The Clear Creek stream gives its name to approximately 65,000 acres 
of mountainous land managed by the BLM that lies in the Diablo 
Mountains between the coastal Salinas Valley and California's great 
inland Central Valley. Designated by the BLM as the CCMA, this area 
includes a significant concentration of serpentine rock at the surface 
which leaves many stretches of open barren slope ideally suited to OHV 
recreation. BLM recognized this and managed approximately 30,000 acres 
of the CCMA for public OHV recreational use. As OHV recreation grew in 
popularity through the 1960s, '70s, and '80s, Clear Creek became a 
haven for dirt bike enthusiasts and others drawn to its open spaces and 
challenging terrain. By 2005, annual use had grown to over 35,000 
visitors, including hikers, campers, hunters, rock collectors, but 
primarily OHV users.
    In 2008, the U.S. Environmental Protection Agency (EPA) released a 
study that concluded the naturally occurring asbestos prevalent in the 
CCMA's serpentine soils posed an unacceptable cancer risk to members of 
the public, especially OHV users, recreating within its boundaries. 
People familiar with the CCMA area had long understood that its 
serpentine rock contained uncommon concentrations of asbestos. Indeed, 
throughout the 1960s and '70s, the Atlas Asbestos Company operated an 
asbestos mine in the CCMA. In 1984, the BLM designated approximately 
31,000 acres within the CCMA that had the highest concentrations of 
serpentine soils as the Clear Creek Serpentine Area of Critical 
Environmental Concern (ACEC).
    In the years leading up to 2008, BLM increasingly had taken 
measures to minimize the recreating public's asbestos exposure. 
However, until the EPA's report, the BLM lacked any clear 
quantification of the risks associated with OHV use. With those risk 
numbers at hand, BLM leadership felt that it could no longer permit the 
OHV and other uses that it had up to that point. So on May 1, 2008, BLM 
issues a temporary closure order for the CCMA and initiated the 
National Environmental Policy Act (NEPA) process to reach a decision on 
a long term plan. In February of this year, the BLM completed that 
process with the release of its final Record of Decision for the CCMA. 
That decision allows limited public access to but makes permanent the 
2008 ban on OHV use within the CCMA.
    The 2008 closure sparked an intense outcry from the OHV community. 
Obviously, people resented loosing access to one of the premier OHV 
locations in the western United States and one at which many of them 
had been riding at for years. The surrounding communities felt the loss 
of visitor income when people stopped traveling to Clear Creek. BLM's 
public meeting on the subject of the closure regularly drew hundreds of 
people. Many argued that the EPA's study over sampled the amount of 
asbestos an OHV user would typically be exposed to riding at Clear 
Creek. In 2011, the State of California Department of Parks and 
Recreation's Off-Highway Motor Vehicle Recreation Commission even 
sponsored an alternative analysis of EPA's data that concluded the 
health risk to OHV use in the CCMA was far less than that identified by 
EPA.
    H.R. 1776 stands for the proposition that the Americans ought to 
have a greater degree of freedom in judging the risks that they can 
accept while recreating on our public lands. I have no doubt that 
riding a motorcycle at Clear Creek is risky and that riders face 
additional risks from asbestos exposure. And I do not question the good 
intentions of BLM's leadership in making the management decisions that 
they did in the face of the health risks outlined by EPA. It was an 
understandable reaction in today's risk adverse world. But should we 
banish all risk from public lands recreation? Hunting, skiing, rock 
climbing, mountaineering, diving, boating, surfing, kayaking, and any 
number of other outdoor sports pose risks. In some cases, people lose 
their lives or suffer serious injury while engaged in one of these 
recreational activities. Provided the risk is not so overwhelming and 
the person recreating knows the nature and magnitude of the risk, the 
Federal Government ought not to substitute its own judgment in place of 
the individual knowingly taking on the risk.
    H.R. 1776 establishes the CCMA as the Clear Creek National 
Recreation Area (CCNRA). It directs the BLM to reopen the CCNRA to OHV 
recreation. It provides for BLM to reuse its 2006 route plan developed 
prior to the 2008 shutdown on an interim basis while it develops a long 
term plan. Within these parameters, the bill provides BLM the broad 
discretion to implement measures to minimize the recreating public's 
exposure to asbestos. It also gives the BLM the authority to levy a 
recreational user fee and apply the proceeds to the management of OHV 
recreation at CCNRA and to contract with qualified State or local 
government agencies to manage all or a portion of the CCNRA's 
recreational activities. Finally, the bill requires an extensive public 
information effort to fully inform people recreating within the CCNRA 
of all known and suspected asbestos related health risks associated 
with recreation within the CCNRA.
    joaquin rocks wilderness and wild and scenic rivers designation
    Just to the east of the Clear Creek Management Area and wholly 
outside the traditional OHV riding areas lays a little known natural 
wonder called the Joaquin Rocks. H.R. 1776 would designate 
approximately 21,000 acres of this feature and the surrounding 
ridgeline as Federal wilderness all which is located entirely on Bureau 
of Land Management administered lands in the southern Diablo Range.
    The area takes its name from the legendary Joaquin Murieta, 
believed by some to be a heroic figure in early California and an 
outlaw by others. The Joaquin Rocks are said to have provided a 
secluded hiding place for him and his band during the 1850s. The area 
also shows archeological evidence of past Native American occupation. 
Rising up over 4,000 feet from the valley floor, the striking Joaquin 
Rocks are the centerpiece of this remote area. These three scenic 250, 
tall monoliths are the eroded remnants of an ancient vaqueros sandstone 
formation.
    The area features numerous rugged canyons. Oak woodlands cloak the 
numerous spur ridges that descend down to the valley. Vegetation in the 
area includes, blue oak, California juniper, grey pine, chaparral, and 
native grasslands. Due to the cooler climate provided by its elevation, 
the area delivers outstanding displays of native wildflowers well into 
summer. The steep cliffs of the Joaquin Rocks--and the numerous other 
towering sandstone formations found throughout the area--are host to 
species of falcons, hawks and owls. These formations could also provide 
potential nesting habitat for the California condor which has been 
reintroduced into the nearby Gavilan Range. One of the peaks of the 
Joaquin Rocks--La Centinela--hosts a unique vernal pool supporting 
fairy and tadpole shrimp.
    H.R. 1776 also designates several streams outside the OHV riding 
area for National Wild and Scenic River Act protection. While the Clear 
Creek area receives very little rain, its boasts several year round and 
ephemeral streams. Its unique serpentine soils and unusual year-round 
flowing streams support numerous rare plants and sensitive wildlife 
species, while offering diverse outdoor recreation opportunities. As a 
result, the Bureau of Land Management (BLM) identified several streams 
in the area as eligible for National Wild & Scenic River protection. 
These include:
    Larious Canyon--5.25 miles. Larious Canyon Creek possesses 
outstandingly remarkable historical and cultural values. Larious Canyon 
Creek also supports foothill yellow-legged frog (a BLM sensitive 
species), Idria short-tailed scorpion (a State-listed species at risk), 
and San Benito fritillary (a sensitive plant).
    San Carlos Creek--5.51 miles. The East Fork supports several 
sensitive plants and its upper segment is located within the San Benito 
Mountain Research Natural Area and San Benito Wilderness Study Area.
    Cantua Creek--7.68 miles. Cantua Creek supports several sensitive 
wildlife and plant species, including foothill yellow-legged frog, 
western pond turtle, two-striped garder snake (a State species of 
special concern), and two sensitive plants--San Benito fritillary, and 
San Joaquin spearscale. It is also the second longest creek on public 
lands in the NRA.
    Picacho Creek--2.65 miles. Picacho Creek possesses outstandingly 
remarkable recreational and ecological values. The creek supports 
foothill yellow-legged frog and two-striped garder snake.
    White Creek and Tributaries--10.11 miles. White Creek and its 
tributaries possess outstandingly remarkable historical and cultural 
values. The creek supports foothill yellow-legged frog and the San 
Benito evening primrose (a sensitive plant).
                               conclusion
    Mr. Chairman, as the subcommittee moves forward to mark-up, I would 
like to request your assistance in making several changes to the bill. 
As with any piece of legislation, several suggested improvements have 
come to light since its introduction. Accordingly, I ask the 
subcommittee to accept the following amendments:

  1.  An updated date for the proposed Joaquin Rocks wilderness to 
            accommodate a new map that reflects a revised wilderness 
            boundary to accommodate a proposed OHV trail;
  2.  Additional language to remove the current wilderness study area 
            status of the San Benito Mountain Wilderness Study Area; 
            and
  3.  Additional language to clarify the bill's intention to maximize 
            the feasible miles of OHV tail that the BLM would manage 
            for OHV use within the boundaries of the newly designated 
            Clear Creek national Recreation Area.

    In closing Mr. Chairman, I want to recognize several people who 
have played an important role in shaping this legislation. Don Amador 
from the Blue Ribbon Coalition and Gordon Johnson from the California 
Wilderness Alliance are the odd couple of California public lands 
policy. Their collaboration provided the initial inspiration for this 
bill and helped resolve countless details over the course of its 
drafting. I also want to thank the BLM's local staff who has been 
extremely helpful and professional throughout this process. And finally 
I want to thank two constituents of mine who never let me forget how 
important Clear Creek was to them: Ed Tobin with the Salinas Ramblers 
Motorcycle Club is a tireless organizer who has kept the Clear Creek 
riding community focused on the public and political process; and Ron 
DeShazer, a forklift operator in Salinas and a long time Clear Creek 
rider, who has come to every one of my town hall meetings for the last 
6 years to calmly ask for Congressional assistance to reopen Clear 
Creek to public OHV use.

                                 ______
                                 

Map of Resource Management Amendment and Route Designation Submitted by 
                     the Department of the Interior

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

          Letters Submitted for the Record Opposing H.R. 2175
                                              ACLU,
                                            Washington, DC,
                                                      May 19, 2014.
Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Re: ACLU Opposes H.R. 2175, World War II Memorial Prayer Act

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the American Civil Liberties Union (ACLU), a non-
partisan organization with more than a half million members, countless 
additional activists and supporters, and 53 affiliates nationwide 
dedicated to the principles of individual liberty and justice embodied 
in the U.S. Constitution, we write to express our opposition to H.R. 
2175, which would require that an inscription of President Franklin D. 
Roosevelt's D-Day prayer be added to the WWII Memorial.
    This bill would detract from the stated purpose of the memorial--
national unity.\1\ Memorials are designed to bring our country together 
in a unified reflection of our past. H.R. 2175, however, endorses the 
false notion that all veterans are honored by a war memorial that 
includes a prayer given from a specific religious viewpoint.
---------------------------------------------------------------------------
    \1\ American Battle Monuments Commission (AMBC), National WWII 
Memorial, Facts, http://www.wwiimemorial.com/
default.asp?page=facts.asp&subpage=intro (``Above all, the memorial 
stands as an important symbol of American national unity, a timeless 
reminder of the moral strength and awesome power that can flow when a 
free people are at once united and bonded together in a common and just 
cause.'').
---------------------------------------------------------------------------
    Our nation is, and always has been, extraordinarily religiously 
diverse; this is one of our nation's great strengths. Department of 
Defense reports show that nearly one-third of all current members of 
the U.S. Armed Forces identify as non-Christian.\2\ Likewise, many of 
our veterans and citizens come from a variety of religious backgrounds, 
or have no religious belief. Instead of being something that unites us 
as we remember the sacrifice of those who served, the inclusion of a 
prayer on the memorial is divisive: It ``sends a strong message of . . 
. exclusion'' to those who do not share the same religious beliefs.\3\ 
The First Amendment affords special protections to freedom of religion. 
Because of these protections, each of us is free to believe, or not 
believe, according to the dictates of our conscience. These beliefs are 
too precious to be used for political purposes, as this bill would do.
---------------------------------------------------------------------------
    \2\ Religious Diversity in the U.S. Military, Military Leadership 
Diversity Comm'n, Issue Paper No. 22 (June 2010).
    \3\ See, e.g., Trunk and Jewish War Veterans v. city of San Diego, 
629 F.3d 1099, 1124-25 (9th Cir. 2011), cert. denied, 567 U.S. __ 
(2012).
---------------------------------------------------------------------------
    The memorial ``we see today, [which] was painstakingly arrived upon 
after years of public deliberations and spirited public debate,'' \4\ 
properly honors those who served. The World War II Memorial Commission 
and the American Battle Monuments Commission (ABMC) carefully chose the 
inscriptions that are integral to the memorial, which include quotes 
spanning from the beginning of U.S. involvement in the war following 
the attacks on Pearl Harbor to the war's end, and already include a 
quote from D-Day and two quotes from President Roosevelt.\5\ These 
commissions thoroughly deliberated which inscriptions to include, 
selecting quotations that honor those who served and commemorate the 
events of World War II.\6\ Not surprisingly, the ABMC and National 
Capital Memorial Advisory Commission, which was designated by Congress 
to consult on the design of the Memorial, have stated that ``no 
additional elements should be inserted into this carefully designed 
Memorial.'' \7\
---------------------------------------------------------------------------
    \4\ Legislative Hearing on Misc. Parks Bills Before the Subcomm. on 
National Parks of the S. Comm. on Energy and Natural Resources, 113th 
Cong. (2013) (Statement for the Record from Stephanie Toothman, 
Associate Director, Cultural Resources, Partnerships, and Science, 
National Park Service, U.S. Department of the Interior) available at 
http://www.nps.gov/legal/testimony/113th/
S.%201044%20WWII%20Memorial%20Prayer%20Plaque%207-31-13%20final.pdf.
    \5\ AMBC, National WWII Memorial Inscriptions, http://
wwiimemorial.com/archives/factsheets/inscriptions.htm.
    \6\ National Parks Service, World War II Memorial Inscription 
Controversy available at http://www.nps.gov/wwii/photosmultimedia/
upload/WWII%20Memorial%20Inscription%20Controversy%20web.pdf. This is 
not the first time that religion has generated controversy regarding 
inscriptions on the WWII Memorial. After the World War II Memorial 
Commission and the ABMC selected quotations to inscribe in the 
memorial, there was a ``maliciously generated and widely distributed 
notion'' that the phrase ``so help us God'' was removed from the quote 
selected from President Roosevelt's address before a joint session of 
Congress following the Pearl Harbor attacks. In fact that phrase was 
never part of the speech at all and was, therefore, not omitted from 
the quotation. Id.
    \7\ Senate Hearing, Statement for the Record from National Park 
Service.
---------------------------------------------------------------------------
    Not only does this bill set a precedent to authorize congressional 
second-guessing of the thorough, deliberative process required to 
establish memorials and tamper with memorials that were constructed and 
dedicated years ago, but it is also written to sidestep the 
Commemorative Works Act's provisions.\8\ It would either override the 
authority established under the Act to approve the World War II 
Memorial's design by adding an additional element nearly a decade after 
the memorial was dedicated or, if the prayer inscription is to be 
considered a new memorial, it would circumvent the Act's stipulation 
that new memorials not ``interfere with, or encroach on, an existing 
commemorative work.'' \9\
---------------------------------------------------------------------------
    \8\ Commemorative Works Act, 40 U.S.C. Sec. 8901 et seq.
    \9\ 40 U.S.C. Sec. Sec. 8904-05; see also Senate Hearing, Statement 
for the Record from National Park Service.
---------------------------------------------------------------------------
    The assertion that the World War II Memorial needs to be improved 
to provide ``historical context to [the] memorial'' and add ``another 
layer of commemoration'' \10\ is simply not the case.
---------------------------------------------------------------------------
    \10\ 158 Cong. Rec. S3748 (June 6, 2012) (floor statement of Sen. 
Portman).
---------------------------------------------------------------------------
    Please contact Legislative Representative Ian Thompson at (202) 
715-0837 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4adb0acaba9b4b7abaa84a5a7a8b1eaabb6a3">[email&#160;protected]</a> if you would like to discuss the ACLU's 
opposition to H.R. 2175.

            Sincerely,
                                           Laura W. Murphy,
                           Director, Washington Legislative Office.
                                           Ian S. Thompson,
                                        Legislative Representative.

                                 ______
                                 

     Americans United for Separation of Church and 
                                             State,
                                            Washington, DC,
                                                      May 16, 2013.
Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Re: H.R. 2175, ``The World War II Memorial Prayer Act of 2013''

    Dear Chairman Bishop and Ranking Member Grijalva:

    We are writing to voice our opposition to H.R. 2175, ``The World 
War II Memorial Prayer Act of 2013,'' which calls for the installation 
of a plaque or inscription with a prayer at the World War II Memorial 
in the District of Columbia. Inserting this prayer onto the Memorial 
would run contrary to the Memorial's goal of uniting Americans and defy 
the designers' judgments, which were ``painstakingly arrived upon after 
years of public deliberations and spirited public debate.'' \1\ The 
Memorial, as designed, is purposely short on words in order to evoke a 
powerful message of unity. And, in contrast to some of the rhetoric 
that has accompanied this debate, the monument already acknowledges 
that faith was important to many soldiers during the war.\2\ There is 
no need to take extraordinary steps to reopen the design of the 
Memorial to add a prayer.
---------------------------------------------------------------------------
    \1\ Hearing on H.R. 1980, H.R. 2070, H.R. 2621, and H.R. 3155 
Before the Subcomm. on National Parks, Forests and Public Lands of the 
H. Comm. on Natural Resources, 112th Congress (2011) (testimony of 
Robert Abbey, Director of the Bureau of Land Management); see also 
Hearing on S. 1044 by the Subcomm. on National Parks S. Comm. on 
Natural Resources, 113th Congress (2013) (statement of Stephanie 
Toothman, Associate Director, Cultural Resources, Partnerships, and 
Science, National Park Service, Department of the Interior) (``Toothman 
testimony'').
    \2\ The monument quotes Walter Lord:     ``Even against the 
greatest of odds, there is something in the Human Spirit--a magic blend 
of skill, faith, and valor--that can lift men from certain defeat to 
incredible victory.''     Thomas B. Grooms,   U.S. General Services 
Administration's Design Excellence Program in the Office of the Chief 
Architect, World War II Memorial Online Book 97 (2004), http://
www.wwiimemorialfriends.org/images/docs/
WWII_Memorial_Book_Completed.pdf (emphasis added).
---------------------------------------------------------------------------
Inserting This Prayer Contradicts the Main Message of the Memorial--
        Unity
    One of the main themes of the World War II Memorial is unity: ``The 
memorial serves as a timeless reminder of the moral strength and the 
awesome power of a free people united in a common and just cause.'' \3\ 
Adding a prayer to the completed Memorial, however, does not serve this 
theme. Instead, it introduces an element to the design on which many 
Americans disagree--religion. America's military, like the Nation 
itself, is extraordinarily religiously diverse. Our veterans, like our 
currently serving troops, come from many different religious traditions 
and some follow no spiritual path at all. Adding a prayer that 
represents some--but not all--veterans and members of the military 
defies the theme of unity and leaves many unrepresented.
---------------------------------------------------------------------------
    \3\ Id. at 25.
---------------------------------------------------------------------------
The Bill Defies the Judgments of the Monument's Designers
    In adherence to the Commemorative Works Act (CWA), the original 
design process included ``more than two dozen public reviews,'' and 
``numerous informal design review sessions with members of the 
evaluation board and design competition jury.'' \4\ The monument's 
designers called for ``Fewer Words--Less Inscriptions,'' and ``decided 
to reduce the number of inscription locations from 25 to 20 and to 
emphasize evocative quotations from World War II participants--
including Roosevelt, Truman, Marshall, Eisenhower, MacArthur, and 
Nimitz.'' \5\ But H.R. 2175 calls for yet another inscription, clearly 
running counter to this goal, design, and aesthetic.
---------------------------------------------------------------------------
    \4\ Id. at 65.
    \5\ Id. at 76, 79.
---------------------------------------------------------------------------
    Indeed, the National Capital Memorial Advisory Commission (NCMAC) 
``reviewed a proposal similar to the one before the committee today at 
its meeting on September 14, 2011, and determined that no additional 
elements should be inserted into this carefully designed memorial.'' 
\6\ The American Battle Monuments Commission (ABMC), which Congress 
charged with designing and building the World War II Memorial, agreed 
with this decision.\7\
---------------------------------------------------------------------------
    \6\ Toothman testimony, supra, note 1.
    \7\ Id.
---------------------------------------------------------------------------
    H.R. 2175 appears to call for the design of the new inscription or 
plaque to go through the CWA process, but it actually ``requires a 
different method of designing and locating the plaque or inscription 
than is provided in the CWA.'' \8\ Nonetheless, calling for the plaque 
to go through the CWA process does not undo the fact that the 
Memorial's design is being reopened and altered, or that the 
painstaking decisions made in the original CWA process are being 
overruled. The bill dictates that a specific inscription be added. Even 
if the exact location and the font of the inscription will be reviewed 
under the CWA, it does not cure the fact that the insertion of the 
plaque violates the original design process and, at a minimum, the 
spirit of the CWA.
---------------------------------------------------------------------------
    \8\ Id.
---------------------------------------------------------------------------
Such Meddling With the Design of a Memorial Is Nearly Unprecedented
    Redesigning critical aspects of a Memorial more than a decade after 
its dedication is nearly unprecedented. Congress did add an inscription 
at the Lincoln Memorial to commemorate Martin Luther King Jr.'s ``I 
Have a Dream Speech'' and added a plaque near the visitor center of the 
World War II Memorial to thank Former Senator Bob Dole for his 
``tireless support of'' the Memorial. But these plaques are wholly 
different. Neither the King nor the Dole plaque changed the content and 
message of the memorial to which they were added: they did not alter, 
remove, or add language, images, or emblems relating to the honoring of 
President Lincoln or World War II veterans. Neither second-guessed the 
designers, historians, architects, or public input regarding the best 
way to honor Lincoln or veterans at the memorials. Instead, they left 
the memorials intact.
    The plaque added at the Lincoln Memorial merely commemorated that 
spot as the site for an important historical event. In just a few 
words, the inscription commemorated Martin Luther King, Jr.'s speech: 
the inscription includes the words ``I HAVE A DREAM,'' and acknowledges 
the speaker, the event, and the date. It does not add, detract, or 
change any aspects of the monument that reflect upon Lincoln.
    The plaque honoring Bob Dole also does not change any reflections 
upon World War II. It was not even embedded into the World War II 
Memorial. Instead, it was placed at the Memorial's visitor center, 
approximately 25 yards away from the World War II Memorial itself. 
Indeed, you must turn away from the Memorial to even see the plaque.
    Inserting the prayer at the World War II Memorial, in contrast, 
would alter the content of the memorial and the message of the monument 
itself.
    It is true that ``each visitor views the memorial through their own 
experience, which sometimes results in their questioning aspects of the 
design.'' \9\ Since the Memorial's dedication, soldiers have requested 
amendments to add the Battles of Cassino, Bougainville, and New 
Georgia; asked for changes to recognize the Canal Zone; and advocated 
for the inclusion of campaign ribbons.\10\ These requests were 
denied.\11\ Indeed, this questioning, no matter how heartfelt, should 
not reopen the design process. As explained in a letter written in 2006 
by the American Battle Monuments Commission, ``The government agencies 
for the design of the memorial . . . consider it complete, recognizing 
that the full story can never be captured in a memorial.'' \12\
---------------------------------------------------------------------------
    \9\ Letters from Michael G. Conley, Director of Public Affairs, The 
American Battle Monuments Commission, Complaint letters to The American 
Battle Monuments Commission (ABMC) from the public and/or Members of 
Congress concerning battle monuments 3, http://www.governmentattic.org/
docs/ABMC_ComplaintLetters_2006-7.pdf.
    \10\ Id. at 4, 25, 39, 51-52.
    \11\ Id. at 3, 25, 38, 50, 71-73.
    \12\ Id. at 3.
---------------------------------------------------------------------------
    For all of the above reasons and more, we oppose the passage of 
H.R. 2175.

            Sincerely,
                                            Maggie Garrett,
                                              Legislative Director.

                                 ______
                                 

                                                      May 16, 2013.
Hon. Rob Bishop, Chairman,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

Hon. Rauul Grijalva, Ranking Member,
House Subcommittee on Public Lands and Environmental Regulation,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    We, the undersigned organizations, write to express our concerns 
about H.R. 2175, the ``World War II Memorial Prayer Act of 2013.'' This 
bill would require the Secretary of the Interior to add an inscription 
of President Franklin D. Roosevelt's D-Day prayer to the WWII Memorial.
    Religious freedom is a fundamental and defining feature of our 
national character. Given our robust, longstanding commitment to the 
freedom of religion and belief, it is no surprise that the United 
States is among the most religious, and religiously diverse, nations in 
the world. Our religious diversity is one of our Nation's great 
strengths.
    This bill, however, shows a lack of respect for this great 
diversity. It endorses the false notion that all veterans will be 
honored by a war memorial that includes a prayer that proponents 
characterize as reflecting our country's ``Judeo-Christian heritage and 
values.'' \1\ In fact, Department of Defense reports show that nearly 
one-third of all current members of the U.S. Armed Forces identify as 
non-Christian.\2\ Likewise, many of our veterans and citizens come from 
a variety of religious backgrounds, or have no religious belief; thus, 
it is inappropriate to honor the ``power of prayer'' \3\ in a national 
memorial.
---------------------------------------------------------------------------
    \1\ See Misc. National Parks Bills Hearing Before the Subcomm. on 
National Parks of the S. Comm. Energy & Natural Resources, 112th Cong. 
(2012) (Statement of Senator Rob Portman) available at http://
www.energy.senate.gov/public/index.cfm/hearings-and-business-
meetings?ID=a64e4f88-18d3-4489-96a0-b1a89b2b51e6 (86:15).
    \2\ Religious Diversity in the U.S. Military, Military Leadership 
Diversity Comm'n, Issue Paper No. 22 (June 2010).
    \3\ Press Release, Sen. Rob Portman, Portman Renews Effort to 
Commemorate FDR's D-Day Prayer with the Nation at the WWII Memorial 
(May 23, 2013), http://www.portman.senate.gov/public/index.cfm/2013/5/
portman-renews-effort-to-commemorate-fdr-s-d-day-prayer-with-the-
nation-at-the-wwii-memorial.
---------------------------------------------------------------------------
    Memorials are designed to bring our country together in a unified 
reflection of our past. Indeed, the WWII Memorial's stated purpose is 
national unity.\4\ Instead of uniting us as we remember the sacrifice 
of those who served, the inclusion of this prayer on the memorial would 
be divisive: It would send a strong message to those who do not share 
the same religious beliefs expressed in this prayer that they are 
excluded and ``not full members of the . . . community.'' \5\
---------------------------------------------------------------------------
    \4\ American Battle Monuments Commission (AMBC), National WWII 
Memorial, Facts, http://www.wwiimemorial.com/
default.asp?page=facts.asp&subpage=intro (``Above all, the memorial 
stands as an important symbol of American national unity, a timeless 
reminder of the moral strength and awesome power that can flow when a 
free people are at once united and bonded together in a common and just 
cause.'').
    \5\ Santa Fe Indep. Sch. Dist. v. Doe, 530 U.S. 290, 309-10 (2000) 
(quoting Lynch v. Donnelly, 465, U.S. 668, 688 (O'Connor, J., 
concurring); see also, e.g., Trunk and Jewish War Veterans v. city of 
San Diego, 629 F.3d 1099, 1124-25 (9th Cir. 2011), cert. denied, 567 U. 
S.__ (2012).
---------------------------------------------------------------------------
    The memorial, as it currently stands, appropriately honors those 
who served and encompasses the entirety of the war. The World War II 
Memorial Commission and the American Battle Monuments Commission (ABMC) 
carefully chose the inscriptions already included on the memorial. The 
inscriptions contain quotes spanning from the beginning of U.S. 
involvement in the war following the attacks on Pearl Harbor to the 
war's end, and already include a quote about D-Day and two quotes from 
President Roosevelt.\6\ These commissions thoroughly deliberated which 
inscriptions to include, selecting quotations that honor those who 
served and commemorate the events of World War II.\7\ As the National 
Park Service explained at the subcommittee hearing, ``The design we see 
today was painstakingly arrived upon after years of public 
deliberations and spirited public debate.'' \8\ The ABMC and National 
Capital Memorial Advisory Commission, which was designated by Congress 
to consult on the design of the Memorial, have stated that ``no 
additional elements should be inserted into this carefully designed 
Memorial.'' \9\
---------------------------------------------------------------------------
    \6\ AMBC, National WWII Memorial Inscriptions, http://
wwiimemorial.com/archives/factsheets/inscriptions.htm.
    \7\ National Parks Service, World War II Memorial Inscription 
Controversy, http://www.nps.gov/wwii/photosmultimedia/upload/
WWII%20Memorial%20Inscription%20Controversy%20web.pdf.
    \8\ Legislative Hearing on Misc. Parks Bills Before the Subcomm. on 
National Parks of the S. Comm. on Energy and Natural Resources, 113th 
Cong. (2013) (Statement for the Record from Stephanie Toothman, 
Associate Director, Cultural Resources, Partnerships, and Science, 
National Park Service, U.S. Department of the Interior) available at 
http://www.nps.gov/legal/testimony/113th/
S.%201044%20WWII%20Memorial%20Prayer%20Plaque%207-31-13%20final.pdf.
    \9\ Id.
---------------------------------------------------------------------------
    The First Amendment affords special protections to freedom of 
religion. Because of these protections, each of us is free to believe, 
or not believe, according to the dictates of our conscience. The effect 
of this bill, however, is to co-opt religion for political purposes, 
which harms the beliefs of everyone.
    Thank you for allowing us to share our concerns with H.R. 2175.

            Sincerely,
                      American Civil Liberties Union (ACLU)
                            American Jewish Committee (AJC)
        Americans United for Separation of Church and State
                                     Anti-Defamation League
                                         Center for Inquiry
                                  Hindu American Foundation
                                        Interfaith Alliance
                           National Council of Jewish Women
      United Methodist Church, General Board of Church and 
                                                    Society

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

--International Environmental Research Foundation, 
``Preliminary Analysis of the Asbestos Exposures Associated 
with Motorcycle Riding and Hiking in the Clear Creek Management 
Area (CCMA) San Benito County, California'', by Richard Wilson, 
John Kelse and GL Nord, RP Nolan and AM Langer, March 8, 2011, 
submitted by Wayne Allard

--Letters in support of H.R. 2489, ``Oregon Caves 
Revitalization Act of 2013'', (total of 38) submitted by Rep. 
DeFazio:

    CAVE JUNCTION BUSINESSES

    <bullet> Cave Junction Family Medicine
    <bullet> Oregon Caves Chevron
    <bullet> Chiropractic Wellness Center LLC
    <bullet> CJ Liquors
    <bullet> Coffee Heaven
    <bullet> Crossroads Animal Hospital
    <bullet> Dennis Strayer, Ret. Federal Agency Visitor Center 
            Manager
    <bullet> Forest Edge Farms
    <bullet> Illinois Valley Family Coalition
    <bullet> Irene Guerrero-Acevedo, Farmers Insurance
    <bullet> Judith Zulliger, Ret. Exec. Dir. Illinois Valley 
            Family Resource Center
    <bullet> Kaufman Wood Furniture
    <bullet> Martell & Associates
    <bullet> Northwest Hairlines
    <bullet> Rachel Goodman, L.M.T.
    <bullet> Renewable Energy Systems
    <bullet> Rogue Natural Living
    <bullet> Siskiyou Art
    <bullet> Siskiyou Mountain Herbs
    <bullet> Siskiyou Research Group
    <bullet> Subway
    <bullet> Suri Futures
    <bullet> WaterCycle Inc

        GRANTS PASS BUSINESSES

    <bullet> Hair Art Thou
    <bullet> Home Valley Bank
    <bullet> The Kitchen Company
    <bullet> Martin's Design & Print Studio

        KIRBY BUSINESSES

    <bullet> The Dovetail Joint
    <bullet> Hampton's Rock Shop
    <bullet> It's a Burl Gallery Woodyard Shop
    <bullet> Yanase Jewelers

        SELMA BUSINESSES

    <bullet> Camp Forest
    <bullet> Clear Creek Family Practice
    <bullet> Dr. Dave Perry, retired professor of forest 
            ecology

        OTHER

    <bullet> Steve Siewart, Horticultural Services (Ashland, 
            OR)
    <bullet> Bonanza Consulting (Bonanza, OR)
    <bullet> Callahan Seeds (Central Point, OR)
    <bullet> R.H. Ziller & Co. Inc (O'Brien, OR)

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
